<html>
<title> - COUNTERING ISIS: ARE WE MAKING PROGRESS?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                COUNTERING ISIS: ARE WE MAKING PROGRESS?

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 10, 2014

                               __________

                           Serial No. 113-234

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                         U.S. GOVERNMENT PRINTING OFFICE 

91-843 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                
                                 
                                 
   
   
   
   
   
   
   
   
   
   
   
   
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas
CURT CLAWSON, Florida

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Brett McGurk, Deputy Special Presidential Envoy for 
  the Global Coalition to Counter ISIL, U.S. Department of State.     3

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Brett McGurk: Prepared statement...................     7

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
Written responses from the Honorable Brett McGurk to questions 
  submitted for the record by the Honorable William Keating, a 
  Representative in Congress from the Commonwealth of 
  Massachusetts..................................................    65

 
                COUNTERING ISIS: ARE WE MAKING PROGRESS?

                              ----------                              


                      WEDNESDAY, DECEMBER 10, 2014

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:05 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order.
    I am going to ask the members and those in the audience to 
take their seats at this time.
    This morning we welcome back Ambassador McGurk for an 
update on the critical effort to counter ISIS. And the 
Ambassador was one of the few in the administration sounding 
the ISIS alarm early on, as you did with this committee. We 
were holding hearings last February, speaking about this 
problem and the need to use air power to turn back ISIS.
    After 4 months of the U.S.-led air campaign in Iraq and in 
Syria, ISIS still controls essentially the same amount of 
territory that it did in the summer. And one of the reasons for 
this, in my opinion, is the limited nature of this effort. We 
have conducted only about 1,000 air strikes to date.
    Now, if you compared that to when Saddam Hussein invaded 
Kuwait and the response on the part of the United States, back 
then we had 1,000 sorties per day. So you get an idea in terms 
of the response and how minimal it is compared to what we have 
seen in the past to deter an entity like this. Moreover, the 
committee is concerned by reports that targeting has been 
micromanaged from the White House. This clearly has been an 
issue within the Pentagon. But even with this flawed air 
campaign, Kurdish and Iraqi security forces have pushed ISIS 
out of specific key infrastructure areas, such as Mosul and the 
Haditha dams. They have done that without the heavy equipment 
that they need. They have done that at great loss, the shedding 
of a lot of their blood. And, frankly, more coalition air 
attacks would mean more ISIS defeats.
    Another pillar of the administration effort is to provide 
training and weapons to U.S. partners on the ground in Iraq and 
in Syria. But when we look at that program in Syria, U.S.-
backed groups have seen no increase in support in the past 
several months. In fact, the Syrian groups have suffered from 
dire ammunition shortages in the last several weeks. We had 
meetings with their representative recently. They are out of 
ammunition. In addition to not being supplied with the heavy 
weapons they need to fight ISIS and at the same time as they 
are fighting ISIS, for example, on the border there, Aleppo has 
ISIS on one side and 30, 40 air strikes a day barrel bombs 
being dropped from the Assad regime on their forces while they 
are trying to fight ISIS.
    In Iraq, the Kurdish Peshmerga remain the most effective 
fighting force against ISIS, but the administration and Baghdad 
have refused thus far to supply them with anything more than 
light weapons as they go up against ISIS's tanks and artillery 
and Humvees and other heavy weapons.
    There was a tragic event a couple of weeks ago, where you 
had a small squadron of Peshmerga trying to take on 10 tanks--
or 10 armored personnel carriers, 10 pieces of armor, that were 
put into play by ISIS against them. They only had small arms 
and, as a consequence, they called in for air strikes, but 
after 2\1/2\ hours--and it took a quite considerable time for 
those air strikes to come in--they had been wiped out on the 
ground.
    This is why we have heard from the foreign minister that 
the situation for the Peshmerga with their need for armor and 
for artillery, for long-range mortars, for antitank missiles--
that unmet need has had very real consequences for them. I am 
hopeful that the recent accord announced between Baghdad and 
Erbil, which I appreciate the administration has helped 
engineer, will speed support for the Kurds. If not, the ranking 
member and I have legislation to do just that.
    Although the administration notes that 60-plus countries 
have joined the anti-ISIS campaign, some key partners continue 
to perceive the administration's strategy as misguided. Turkey, 
for one, has withheld use of its air base, involvement of its 
ground forces and other resources. And the Saudis and other 
Arabs don't see how allowing Assad to pummel those on the 
ground from the air in Aleppo makes any sense.
    Instead, they push, of course, for a no-fly area along the 
Kurdish border, where they suggest they and Jordan can patrol 
that long term to keep from having the Free Syrian forces hit 
from the air by Assad at the very time they are trying to fight 
against ISIS.
    Meanwhile, there are grave security consequences to 
allowing ISIS to control a territory of the size of western 
Iraq and eastern Syria. Clearly, as of September, there were 
already over 15,000 foreign fighters within ISIS and, 
reportedly, ISIS has been recruiting 1,000 new fighters per 
month.
    This is part of the problem of not turning back ISIS, is 
that, on social media, they use the argument that they are on 
the advance, they are carrying out their jihad, and, of course, 
this resonates with certain young men who enlist in their 
cause. This is why we would argue that a more effective 
strategy that would roll them back would hurt their recruiting 
effort. And these fighters, particularly with western 
passports, have the potential to attack us at home.
    As members may remember, when Secretary Kerry testified 
here in September, he said it is time for the defensive 
strategy we and our international partners have pursued thus 
far to transition to an offensive strategy.
    Ambassador McGurk, with a lackluster air campaign, severely 
under-supplied partners on the ground, and key allies with deep 
concerns about the President's strategy, I just don't see how, 
you know, this is a credible offense, and we would like to talk 
to you--I would like to ask you about that.
    And, of course, next Congress, this committee expects to 
consider a new authorization for use of military force to 
support this effort, and that is something we will do under a 
timeframe that is befitting of the gravity of the issue. And 
the committee also expects that the Commander in Chief will 
come to Congress with his request and work in a bipartisan way 
to garner maximum support.
    Before turning to the ranking member, I would like to note 
that this is the last full committee hearing of the 113th 
Congress, and we have accomplished a lot in the last 2 years, 
for which I would like to recognize all the members for their 
contribution.
    And for those members who will not be returning, we wish 
you well.
    And I was going to turn to Mr. Engel at this time, whose 
long-held observations on Syria have proven prophetic. He has 
seen things as they really were on the ground, frankly, 
before--before many and suggested a strategy to engage ISIS 
before this committee some 2 years ago.
    While we wait for the ranking member, my suggestion then 
would be that we go, Ambassador, to your testimony. And after 
you conclude, he will make his opening statement.
    Ambassador McGurk.
    This morning we are pleased to be joined by Brett McGurk, 
the Ambassador who was recently tapped to serve as the Deputy 
Special Presidential Envoy for the Global Coalition to Counter 
ISIL, working alongside General Allen.
    He concurrently serves as the Deputy Assistant Secretary 
for Iraq and Iran. He was previously Senior Advisor to 
Ambassadors Ryan Crocker, Christopher Hill, and James Jeffrey 
in Baghdad.
    Without objection, the witness's full prepared statement 
will be made part of the record. Members will have 5 calendar 
days to submit statements and questions and extraneous material 
for the record.
    And, Ambassador, if you would please summarize your 
remarks. Thank you for being with us.

    STATEMENT OF THE HONORABLE BRETT MCGURK, DEPUTY SPECIAL 
 PRESIDENTIAL ENVOY FOR THE GLOBAL COALITION TO COUNTER ISIL, 
                    U.S. DEPARTMENT OF STATE

    Ambassador McGurk. Thank you, Chairman Royce, Ms. Ros-
Lehtinen, and members of the committee. It is an honor to 
appear again before this committee to provide an update on the 
global campaign to degrade and defeat ISIL.
    Before discussing the state of the campaign and where we 
are going, I would like to reflect briefly on how far we have 
come in the 6 months since the city of Mosul in Iraq fell.
    I was in northern Iraq on June 10th, 6 months ago today, 
when Mosul collapsed. Over the next 72 hours, ISIL formations 
poured through the Tigris Valley, multiple cities fell, entire 
army divisions collapsed, and ISIL threatened the northern 
approaches to Baghdad.
    To the west, a lesser noted, but equally devastating, 
offensive took place from across the Syrian border with ISIL 
capturing the strategic Iraqi border city of al Qaim. ISIL then 
poured down the Euphrates Valley, threatening the western 
approaches to Baghdad.
    In Baghdad during this period, just 6 months ago this week, 
there was a growing panic within the population, the 
Government, security services, and the diplomatic community. At 
the Embassy, we prepared for the worst-case scenario and 
evacuated 1,500 people, moving them to Amman, Kuwait, or Erbil. 
We also prepared to help the Iraqis fight back.
    Within 72 hours of Mosul's collapse, the President ordered 
four initiatives to hold the line and set the conditions for a 
possible counteroffensive.
    First, we surged intelligence over the skies of Iraq. We 
went from flying one platform per month to 60 per day, gaining 
a more granular picture of the ISIL network, which is essential 
to any military campaign.
    Second, we established joint operation centers in Baghdad 
and Erbil, restoring critical relationships with Iraqi and 
Kurdish commanders and gaining new insight into their 
capabilities and needs.
    Third, we deployed special forces teams to assess Iraqi and 
Kurdish security formations with a focus on the defense of 
Baghdad.
    And, finally and perhaps most importantly, we supported the 
Iraqis as they worked to stand up a new and more inclusive 
Government following national elections.
    Throughout the summer months, we worked these four tracks 
simultaneously, learning more about ISIL, its locations, its 
movement, and leadership patterns, restored relationships with 
Iraqi commanders, and learned more about the deficiencies 
within their security services while supporting Iraqi political 
leaders as they stood up a new Government.
    For all of these reasons, on August 8th, when the President 
first ordered U.S. military forces to conduct air strikes in 
Iraq, we were able to act with precision and efficacy.
    On September 8th, 1 month later, the Iraqi Parliament 
inaugurated a new Iraqi Government with a new prime minister 
and new and very different leaders across nearly every key 
cabinet position, including oil, finance, and defense.
    This new Government, led by Prime Minister Haider al-Abadi, 
represents a bulwark against ISIL and a significant break from 
the past in three key respects.
    First, its governing philosophy is decentralization or a 
functioning federalism with authorities and resources delegated 
to provinces and regions within the constitutional structure of 
Iraq. Last week's historic oil accord with the Kurdistan region 
is an outgrowth of this new policy.
    Second, the new Government has committed to significant 
security reforms, including a smaller, more agile army, 
strengthen security forces at the local level, including tribal 
forces, and, ultimately, provincial-based national guards.
    Third, the new Government is committed to a policy of 
restoring relations with regional capitals and maintaining 
Iraq's strategic independence and regional balance. Even in its 
first 100 days, the new Government has made or exchanged 
breakthrough visits with UAE, Turkey, Kuwait, Jordan, and Saudi 
Arabia.
    Nonetheless, despite this progress, the challenges of this 
new Government are truly enormous. ISIL has thousands of 
fighters controlling territory in three major cities in Iraq 
where state structures have collapsed.
    The Iraqi economy, which had been growing at 4 percent per 
year, is now predicted to contract due to falling oil prices. 
This new Government, despite the promise, simply cannot defeat 
ISIL and stabilize Iraq on its own. It will need the support of 
the United States and of the world. That is why we have 
established a global campaign to prosecute a comprehensive 
effort against ISIL.
    Last week in Brussels, Secretary Kerry chaired a historic 
conference that brought together 60 coalition partners to 
affirm a common and shared commitment across five lines of 
effort. This conference, for the first time, formalized the 
global coalition to defeat and degrade ISIL.
    The lines of effort include military support to our 
partners, countering foreign fighters, countering ISIL 
financing, humanitarian support, and delegitimizing ISIL's 
ideology and messaging.
    We are now seeing progress along each of these lines of 
effort. On the military side, there are now seven countries 
flying combat air missions over Iraq and five doing the same 
over Syria. To date, we have conducted over 1,200 air strikes 
against ISIL terrorists.
    As a result of these strikes, ISIL's offensive has been 
halted, its ability to amass and maneuver forces degraded, its 
leadership sales pressure are eliminated, its command and 
control supply lines severed.
    In the past 60 days alone, Iraqi forces have retaken ground 
at Mosul Dam, Erbil border, and Baiji Refinery in southern 
Baghdad. They have also held the line at Haditha Dam, Ramadi, 
and Amerli.
    Efforts to generate additional forces, specifically 12 new 
brigades, including three Kurdish Peshmerga brigades, will soon 
begin at multiple sites across Iraq with cooperation from our 
coalition partners.
    In Syria, Kurdish and Arab fighters at Kobani, under the 
cover of our air strikes, implemented a massive ISIL assault, 
leading to significant attrition of ISIL fighters. They are now 
losing more than 100 fighters per week, including top 
commanders and top foreign fighters. Moderate opposition forces 
ares also holding their ground against ISIL north of Aleppo.
    On combating foreign fighters, we now have in place a 
Chapter VII Security Council resolution calling on all member 
States to stem the flow of foreign fighters to Syria. Members 
of the coalition are increasingly criminalizing foreign 
fighter-related activities. In the past month alone, foreign 
fighter networks have been broken up in Austria and Malaysia 
and foreign fighters prosecuted in Germany, Australia, and the 
UK.
    On counter-finance, we are working with partners to cut the 
avenues of revenue and we are destroying ISIL's refining 
capacity, denying its main source of revenue from oil trade. 
These efforts are now having an impact.
    On the humanitarian front, much has been done, but far more 
is needed, and this was the key focus of our conference in 
Brussels last week.
    Finally, on countering ISIL's message, we have begun an 
aggressive campaign led primarily by our partners in the Middle 
East region. We have seen fatwas issued from top religious 
leaders in Egypt and Saudi Arabia declaring ISIL a direct 
threat to Islam, and other coalition partners are working to 
establish operations rooms to combat ISIL's social media 
presence and messaging campaign in real time.
    As President Obama's envoys to the anti-ISIL coalition, 
General John Allen and I have visited 16 capitals over the past 
few months to discuss cooperation across these lines of effort. 
We have found the coalition strongly and firmly united, 
particularly when it comes to the way forward in Iraq.
    The situation in Syria is more complex and our tools, for 
the moment, more limited. General Allen and I hear a common set 
of questions about the best way forward in Syria and, also, a 
divergence on how to proceed.
    Many of our coalition partners do not envision themselves 
as having signed up to bring about a political transition in 
Syria through military force, considering such a transition 
potentially even more destabilizing than the situation we face 
now. At the same time, other coalition partners are urging 
strikes against the Assad regime, considering the regime a 
central source of instability in the region.
    Our message to all these partners has been clear. We 
believe there must be a political transition in Syria through a 
negotiated political process. We are firm in our commitment 
that any future government cannot include Bashar al-Assad, who 
has forfeited any claim of legitimacy to govern and remains a 
magnet for terrorism in the region.
    A political transition will also require a strong 
counterweight to extremists like ISIL. That is why the 
Department of Defense is leading an effort to train and equip 
moderate opposition forces, subject to authorization and 
funding from Congress.
    This process, of course, will take time, and throughout we 
will constantly assess how we can best ensure the moderate 
forces in the field are able to protect themselves against 
multiple threats, including ISIL, the Nusra Front, and the 
Syrian regime.
    In conclusion, looking back from 6 months ago at this very 
hour, we have indeed begun to make progress against ISIL. But I 
want to emphasize this will be a long-term, multi-year 
campaign. We are now in the earliest phases of Phase 1. And as 
we move into a new phase, it will require a global effort in 
addition to the ongoing support from this Congress.
    So I am honored to be here to discuss with you today the 
state of the campaign, and I look forward to your questions.
    [The prepared statement of Ambassador McGurk follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
                              ----------                              

    Chairman Royce. Thank you, Ambassador.
    I think I will start with my questions and then, when Eliot 
arrives, he can give his opening statement and ask his. And 
then we will go down the line.
    But, Ambassador, as you know, the Syrian city of Aleppo is 
the last major city there, the last refuge of the Syrian middle 
class, that is under the partial control of the moderate Syrian 
opposition as it is pushed by ISIS.
    This is an absolutely critical city for the opposition for 
both symbolic and strategic reasons. It is through this city 
that most foreign humanitarian and military assistance to the 
people of northern Syria and the moderate opposition flows.
    Yet, over the past year, as the moderate opposition has 
struggled to maintain its defense of this city, as better 
resourced fighters from ISIS, as, you know, as many as 40 air 
strikes a day from the Assad regime hit them, they have had to 
contend with Assad's use of Hezbollah fighters against them.
    And so you see a situation where ISIS has gradually 
captured an increasing portion of the city as have other--as 
have those who want to extinguish this last representation of 
the Syrian middle-class efforts to hold on. And they are 
encircled, and they are defending it from within. And most 
observers agree that, if Aleppo falls out of moderate control, 
it will have catastrophic consequences for the Free Syrian 
Army.
    So they are already on the ropes after years of anemic 
support. When we meet with them, we hear the same thing that 
you hear from them. They can't get the equipment that they need 
to fight back against ISIS.
    So in late August, a team of State Department briefers met 
with committee staff, which had requested a briefing on the 
situation in Aleppo. The State Department officials said it was 
a question not of when it would fall, but--it was a question of 
when, not if, Aleppo would fall. I use their words. A question 
of when, not if, Aleppo would fall.
    When our staff asked if the administration viewed 
preventing the fall of Aleppo as a strategic priority, the 
State Department said that the administration was still trying 
to decide if it was, which sounded like diplomatic speak for 
no.
    And as events have played out over the past few months, it 
seems clear that that was the case. ISIS continues to advance 
on Aleppo. The barrel bombs continue to drop on the city. And 
this is now on a daily basis.
    So, Ambassador, if we are serious about combating ISIS in 
Syria, we cannot let Aleppo fall. It is far more strategically 
important than Kobani and far more lives are at stake, yet 
nearly all of our air strikes are focused not in that area, but 
up in Kobani.
    If Aleppo falls, it is likely that yet another massive wave 
of displaced people and refugees would result, and what is left 
of the opposition around the Syrian middle class will all but 
be destroyed.
    So I will just ask you: Is preventing the fall of Aleppo an 
administration priority?
    Ambassador McGurk. Thank you, Mr. Chairman.
    Let me address that question a few ways. And we are very 
focused on the situation in Aleppo.
    I first--I want to be clear on what our authorities are to 
conduct military action in Syria. Right now we are acting 
pursuant to requests from the Iraqi Government to the United 
Nations Security Council to protect them against ISIL.
    So all of our kinetic operations in Syria are focused on 
ISIL. Where ISIL is operating in these areas, I can assure you 
that my DoD colleagues are looking very closely at what we can 
do against ISIL.
    On the Aleppo situation, we are very focused on what we can 
do. That is why General Allen and I have made about four trips 
to Turkey over the last couple of months and the focus of the 
conversation with the Turks is how we might be able to work 
together to begin to improve the situation there.
    We are obviously doing a number of things with the moderate 
opposition in these areas, which I can't discuss here. But all 
I can do is assure you, Mr. Chairman, that we are very focused 
on this situation and looking at ways to allow them to hold the 
line.
    ISIL is north of Aleppo, kind of just south of the Turkish 
border. Within the city of Syria--within the city of Aleppo 
itself and surrounding areas, it is not so much ISIL.
    But what we are focused on in terms of kinetic action, it 
is ISIL targets. They can be very hard to find. But we are 
looking at it very closely, and our conversation with Turkey is 
specifically focused on this question.
    Chairman Royce. Well, that calls into question the fact 
that they are fighting al-Qaeda units as well, as you know. It 
calls into question our policy in the safe zones.
    But my worry about the dithering on this is that we had 
these dialogues back in February on ISIS at a time--frankly, we 
began this dialogue before ISIS even took Fallujah, when we 
were calling for air strikes and action against ISIS before 
they managed to pull that off.
    And then city by city by city the call went out from 
Members of Congress and by others who have experience that, if 
ISIS wasn't hit while their columns were on the ground, that 
Mosul itself would fall. And it did. And they took the central 
bank.
    Still no action. Still discussion. Still dithering. And now 
we are at the point where we see the last major stronghold for 
the Syrian middle class trying to hold off ISIS and hold off 
al-Qaeda on one front and hold off the barrel bombs, and we 
still can't seem to see any policy that will rescue the city.
    And when our--when we directly ask whether it is a 
strategic objective to try to hold against the fall of that 
city, the response we get is, ``We are still trying to 
decide.''
    We can be still trying to decide after we have lost the 
ability to reverse what is going on in Syria, just as we lost 
that ability to reverse what was going on in western Iraq, 
because we didn't hit the targets prior to them taking Mosul.
    So I--anyway, my time is expired. And we will now go to Mr. 
Sherman of California. We will return to Mr. Engel.
    Mr. Sherman. Ambassador, interrupt me if I have got this 
wrong. But you are not saying that the U.N. Resolution or the 
request to the Iraqi Government gives the administration legal 
authority under American law to deploy troops. You are relying 
on the various authorization to use military force.
    It is also my understanding that the interpretation is that 
they authorized the efforts that you have taken against al-
Qaeda in Syria, that you have taken against ISIS, which is a 
splinter--arguably, a continuing splinter of one of the many 
streams of al-Qaeda.
    Do I have that right as to your legal position?
    Ambassador McGurk. Our international basis for operating in 
Syria now----
    Mr. Sherman. I wasn't asking about your international 
basis. That is not legally binding. What is legally binding is 
the laws of Congress.
    And you are not claiming that the U.N. Actions or the Iraqi 
actions give you authority under the War of Powers Act?
    Ambassador McGurk. No. I am saying that the situation in 
Aleppo is a very confused one. Our ability to look closely at 
what is happening there is limited by the fact that we are 
flying all the way from the Gulf. So our loiter time in these 
areas is limited.
    And our focus right now is on ISIL. As you know, we are----
    Mr. Sherman. Ambassador, I was asking you a question about 
the legal position of the administration, its authorization to 
use force, and you are telling me about how difficult it is to 
bomb based--you are not going to answer my questions. I want to 
go on to another--another question.
    We have been pushed around by this Iraqi Government. We 
saved it. You have pointed out, I believe, that they would have 
taken Baghdad--or might well have taken Baghdad if it hadn't 
been for us.
    They are terrorizing the folks at Camp Liberty without--in 
clear violation of not only U.S. preferences, but international 
law. They have allied themselves with Iran, with the Iranian 
Air Force carrying out attacks--operations over Iraq and 
Iranian ground forces operating on the ground in conjunction 
with Iraqi forces.
    And sometimes folks at the upper levels of the State 
Department don't focus that much on the money of U.S. 
taxpayers. We are giving all this--a tremendous amount of aid 
to Iraq; whereas, it is my understanding that Iraq is still 
paying and still acknowledges its debt to Saudi Arabia and 
Kuwait for tens of billions of dollars borrowed by Saddam 
Hussein.
    Have you bothered--is Iraq still making payments to Kuwait 
and Saudi Arabia on that debt? And does that, therefore, put 
them in a position where, instead of paying for what we give 
them, often we have to give it to them for free?
    Ambassador McGurk. As I mentioned briefly in my opening 
testimony, the Iraqis face a very serious fiscal crisis. They 
are facing a $40 billion----
    Mr. Sherman. They face that fiscal crisis, in part, because 
they honor the debts to Saudi Arabia and Kuwait run up by 
Saddam Hussein.
    Ambassador McGurk. Well, it is a very good----
    Mr. Sherman. Have--and I have brought this up at hearings 
for the last 5 years in this room. I have never gotten a 
straight answer out of the State Department. I figured I would 
try it at----
    Ambassador McGurk. No. I will give you a straight answer, 
Congressman.
    The payments to Kuwait are mandated by a Chapter VII U.N. 
Security Council resolution. They come to about $1 billion a 
month. Iraq is obligated to pay those funds.
    Mr. Sherman. Those are payments on Saddam Hussein's debt?
    Ambassador McGurk. Well, they are payments of the 1990-1991 
Gulf War reparations, but they are about $1 billion a quarter.
    Mr. Sherman. Well, that is the--no. I am not talking about 
the reparations. I am talking about the money Saddam borrowed 
to carry on his war against Iran, the promissory notes and 
bonds.
    Ambassador McGurk. Right. No. The Iraqis resist paying, as 
you know, the debts of Saddam Hussein because the new Iraqi 
Government considers themselves also a victim of Saddam 
Hussein, which is true.
    Mr. Sherman. But they haven't renounced those debts. We 
haven't urged them to renounce those debts.
    Ambassador McGurk. Well, we have. We have urged over the 
last decade all the debt holders from the Saddam era to 
renounce those debts.
    Mr. Sherman. Well, not--you have asked the debt holders to, 
but you haven't had--urged Iraq to refuse to pay. It is one 
thing to ask the creditor, ``Oh, please tear up the note.'' It 
is another thing to stand behind the debtor saying, in effect, 
``We don't owe the money. We are not going to pay.''
    Ambassador McGurk. We are doing anything we can to help the 
Iraqis preserve their fiscal resources right now. That is why 
we are working with----
    Mr. Sherman. Except stand up to Saudi Arabia and Kuwait and 
void this debt, money they lent Saddam Hussein to carry on a 
war against Iran.
    Ambassador McGurk. If I can just--it is a slightly 
different issue. But, with Kuwait, we are actually in very good 
discussions with them. The Secretary of Defense just saw the 
Emir. I saw the Emir with General Allen about a month ago about 
relieving those payments. So we are----
    Mr. Sherman. You are talking--you are talking about 
completely different payments, sir. I am talking about the debt 
run----
    Ambassador McGurk. They come from the same pot. They come 
from the same pot.
    Mr. Sherman. They do?
    Ambassador McGurk. The Iraqis are limited in terms of their 
ability to fund these things.
    Mr. Sherman. Okay. And I hope for the record you will brief 
us on what you have done to push the Iraqi regime to honor its 
obligations to the residents of Camp Liberty and Camp Ashraf.
    Ambassador McGurk. I would be happy to come up and give you 
a briefing on that. And we are working very hard on the issue. 
And, of course, the new Iraqi Government has been in place for 
100 days, and it is much different than the previous 
Government. And I think we are making some progress on these 
issues. But I would happy to--I would be happy to come brief 
you on that.
    Mr. Sherman. Okay.
    Ambassador McGurk. Thank you.
    Chairman Royce. We go now to the ranking member, Mr. Eliot 
Engel.
    Mr. Engel. Thank you, Mr. Chairman.
    Ambassador, thank you. Thank you for your good work.
    Mr. Chairman, thank you for calling this important hearing 
on the fight against ISIS.
    Though our military operation against ISIS is focused in 
the Middle East, the threat posed by these terrorist groups 
spans the globe. Recent reports indicate that ISIS is 
recruiting more than 1,000 foreign fighters every month. These 
fighters are streaming into Syria and Iraq from Europe, North 
Africa, the Gulf, the U.S., and other nations. Most troubling, 
some of them are returning to their home countries, armed with 
the knowledge of how to sow terror.
    Just as the threat spans the globe, so must the coalition 
be responding to this threat. And the good news is more than 60 
countries have joined the anti-ISIS coalition.
    Together we are cracking down on terrorist financing, 
stemming the flow of foreign fighters, discrediting ISIS's 
false and violent ideology, providing military support to our 
partners, and addressing the grave humanitarian crisis that has 
left hundreds of thousands without homes or families.
    And a significant number, including several European 
countries--Australia, Canada, and a number of regional 
partners--have worked alongside the U.S. Military to target 
ISIS and impede its growth.
    We are making progress, but we are nowhere near to stamping 
out this threat. And today I hope we can discuss what strategy 
will get us closer to that goal.
    I wanted to say, Mr. Ambassador, there are a few areas I 
think are especially critical.
    Firstly, while we need a global coalition, it is critical 
that we engage closely with local partners: Iraqi and Syrian, 
Arab and Kurd. Such cooperation is essential to stop the spread 
of ISIS and to ensure that the U.S. does not bear a 
disproportionate share of the burden in this fight.
    For years, I have supported a program to train and equip 
the moderate Syrian opposition which can serve as boots on the 
ground in Syria. Congress voted overwhelmingly to get this 
program off the ground. And I look forward to hearing about the 
status of this effort.
    Secondly, we need to state clearly that there is no future 
for Assad in Syria and seeing Assad go remains a top priority 
and that the interests and the goals of the United States 
simply don't align with Assad or with Iran.
    Assad is a brutal dictator responsible for the deaths of 
tens of thousands of Syrians. We all saw the horrific pictures 
smuggled out of Damascus by ``Caesar,'' a photographer, a 
Syrian Army defector.
    Assad is also a magnet for extremism. The conflict in Syria 
and Iraq will never end as long as he remains in power, 
courtesy of Iran and its terrorist proxy, Hezbollah.
    Lastly, we must determine and understand that the U.S. 
plays a unique role in this situation. Our capabilities are 
unmatched. I understand that the American people are uneasy 
about getting more involved in another conflict halfway around 
the globe. I feel the same way.
    We are tired of war. We want to bring our men and women 
home, which is another reason why working with local partners 
is so important. It will help prevent future escalation of 
American involvement.
    But we must not forget that, in so many places around the 
world, freedom, dignity, and justice are under constant attack. 
And I firmly believe that, if the U.S. does not lead the way as 
a champion of these values, no one else will.
    We believe in a world in which all people are free to 
decide their own futures, and there are times when defending 
and advancing that vision requires difficult choices and 
sacrifice.
    That is what makes the United States the world's one 
indispensableNation. We didn't ask for this conflict, but we 
cannot ignore it. So I look forward to hearing the questions 
and the answers and the testimony. And I want to ask as my 
first question a question about Iran.
    Iran also wants to defeat ISIS, but reports indicated that 
Iranian fighter jets were targeting ISIS in Iraq. What 
involvement does Iran have in Iraq both in the air and on the 
ground? What is their involvement with the Shia militias? And 
how are the Shia militias involved in the fight against ISIL? 
How can we prevent out best intentions in Iraq from empowering 
Iran? That has already happened once. We don't want it to 
happen again.
    Ambassador McGurk. Thank you.
    Let me--there is no question that Iran is playing a role in 
Iraq. ISIL is a threat to Iran. And we have said that every 
country in the world has a role to play in defeating ISIL.
    The question for the Iranians is whether they are going to 
do it in a constructive way that respects Iraqi sovereignty or 
in a destructive way that undermines Iraqi sovereignty.
    Some of what we are seeing right now in terms of Iranian 
militias is not only problematic to--in terms of what we are 
seeing, it is also problematic, I know, to the new government 
and, also, to Grand Ayatollah Sistani, who has spoken out 
against any armed group operating outside the structures of the 
Iraqi state.
    And the Iraqi Government has made a commitment that was 
reaffirmed before 60 countries last month in Brussels to ensure 
that all armed groups are operating under the structures of the 
Iraqi state, and that is something that the Government will be 
working on.
    But in the total security collapse we had this summer, 
there is no question that militias and some armed groups filled 
that vacuum, that Iran has played a role in that, and it is 
something that the new Government will have to--will have to--
have to begin to work on.
    Mr. Engel. I just think--I just think--and then I will 
yield back--that we need to be very wary of Iran. It is not 
simply the enemy of my enemy is my friend. And I think we need 
to be very, very careful not to--not to stumble down that path.
    Thank you.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you.
    We go to Ileana Ros-Lehtinen, chair of the Middle East 
subcommittee.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    Good to have you back, Ambassador.
    Following up on Mr. Engel's questions regarding Iran, the 
Secretary has stated quite clearly that the United States is 
not coordinating with Iran on Iraq and on the fight against 
ISIL. And, in addition, in your 15-page testimony, you don't 
mention Iran even a single time, yet the regime clearly has a 
role that it is playing in Iraq, as you just stated. Prime 
Minister Abadi has claimed no knowledge of the recent air 
strikes, but Iran has confirmed that it did carry them out.
    So who currently controls the air space in Iraq, given that 
the Iraqis don't have sufficient capabilities to maintain their 
own air sovereignty? And if no coordination had taken place and 
the Iranians did, indeed, take this action into their own hands 
without coordinating, didn't Iran violate Iraqi air space? Will 
there be any repercussions from that?
    As we continue our nuclear talks with Iran, we ignore 
multiple violations that Iran continues to make as the talks 
take place. Will this be yet another violation of Iran that we 
turn a blind eye to?
    The Secretary has called--called possible Iranian action in 
Iraq against ISIL as positive despite the fact that Tehran's 
incessant meddling in Baghdad and its stoking of sectarian 
tension in Iraq and in Syria has played a large part in the 
rise of ISIL.
    Is it the administration's view that having a Shiite Iran, 
the world's foremost supporter of terrorism, in spite of our 
nuclear talks, invade Iraqi air space to attack Sunni ISIL--
does the administration view this as a positive development?
    And, on Syria, you testified that it is our goal, not that 
it is an absolute necessity, to find a future in Syria that 
does not include ISIL or Assad, as you stated in your 
testimony, and that we are relying on moderate rebels to defeat 
them both and usher in a political settlement.
    Will the Assad regime being supported by Iran and Russia as 
they are and with ISIL being so well financed--how will a group 
of rebels be able to defeat them both? And what would they need 
in order to accomplish that goal?
    The administration doesn't have a comprehensive policy to 
deal with all of the threats in Iraq and Syria and Iran, nor 
does it seem to want one. These aren't realistic plans that can 
truly destroy ISIL, can defeat al-Nusra, and defeat the Assad 
regime. We haven't even begun the train-and-equip mission, and 
we are about a year away from even standing that minimal force 
up, if ever at all.
    Is that the case? Where are we with that mission, sir?
    Ambassador McGurk. Let me address your questions briefly.
    First, in my testimony, I did focus on the concern about 
the militias and Prime Minister Abadi's commitment in Brussels 
to begin to rein those in, all armed groups within the 
structures of the state.
    I also focused on the desire of this new Government to have 
strategic independence in the region, and that gets to his 
outreach his Arab neighbors and, also, the important outreach 
to Ankara, which is happening now, which was not happening over 
the past few years.
    That is very important. Iran is a fact in Iraq. You just 
have to look at a border--at a map to see that with a 1,500 
kilometer border. And as we speak right now, there is 500----
    Ms. Ros-Lehtinen. Excuse me, sir.
    Would you say that Iran violated Iraqi air space?
    Ambassador McGurk. I would have to defer to some of my DoD 
colleagues about what exactly happened there. I know that was 
a----
    Ms. Ros-Lehtinen. If they did, would there be any 
consequences for that violation, one of many?
    Ambassador McGurk. Well, it is up to the Iraqi Government 
to control its own air space. But, as you said, they lack the 
assets and resources to do that.
    I would mention on that score the F-16 program is moving 
forward. The Iraqis have allocated funds for it. The pilots are 
in training. And we are working with Jordan, actually, to house 
those F-16s on a temporary basis before the bases in Iraq are 
ready.
    Ms. Ros-Lehtinen. And, if I could in just the few seconds 
we have left, on Syria, what is the latest with the train-and-
equip mission? It doesn't seem that we have come very far.
    Ambassador McGurk. Well, as you know, that is a Title 10 
DoD program, and my DoD colleagues can give you a very 
substantial briefing on that.
    General Allen and I have been to the--some of the host 
countries, such as Turkey, Qatar, and Saudi Arabia, about the 
progress in getting the sites up and running.
    We hope, with the progress that Congress is making this 
week, that we can get those programs moving as early as March 
with the training to begin.
    Ms. Ros-Lehtinen. And is it the administration's view 
still, as you stated, that Assad must go? Does that mean that 
he must be removed from power or are you just saying he should 
not have a future in Syria?
    Ambassador McGurk. Well, we are focused on a political 
transition process. And there are two political tracks going on 
right now. One is led by Staffan de Mistura.
    The U.N. Special Representative is looking at a bottom-up 
approach, getting to the chairman's question on Aleppo. He is 
very focused on freezing the situation in Aleppo. We very much 
support that initiative.
    And, also, Secretary Kerry has been in conversations with 
key stakeholders in the region about regenerating a new 
political track. But clearly nobody believes that Bashar al-
Assad can govern that state and bring it to any sense of 
stability----
    Ms. Ros-Lehtinen. Do you think that the rebels are going to 
remove him from power?
    Ambassador McGurk. Excuse me?
    Ms. Ros-Lehtinen. Will the rebels remove him from power? 
Who is going to remove Assad from power?
    Ambassador McGurk. Again, my DoD colleagues could discuss 
the military situation. But we do not see a situation in which 
the rebels are able to remove him from power. It will have to 
be a negotiated diplomatic process.
    Chairman Royce. Just regarding the Syria train-and-equip 
program, it is unfortunate that the DoD did not make 
available--was unable to make--to provide a witness today. We 
had made the request.
    We go now to Mr. Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman, for this important 
hearing.
    And thank you, Mr. Ambassador, for being here.
    You know, as I am sitting listening to your testimony and 
listening to the questions that are being asked, I understand 
that this is a complicated situation. It has been since we have 
been here. It is not easy. People have relationships in that 
region, some for decades, some for centuries, against one 
another, different interests, and we are trying to navigate all 
of that. This is not a simple scenario.
    I can recall being at this hearing--in this hearing room 
before where, for many of us, it was easy for us to be up here 
to think that it is simple. We thought it was simple to get rid 
of Saddam Hussein. We said that it would take just a few days. 
In fact, we got on a ship and said mission accomplished a few 
days after shock and awe.
    I am glad we are not being that simplistic about this. The 
administration has been honest to say that it will take years 
to get this done and to get it done right, not based upon 
emotion, not based upon trying just to get us together so that 
we can say rah-rah, but based on trying to get together with 
our allies in the region, those that got complicated 
relationships, so that we can try to figure out once and for 
all how do we get this thing done without it just being stuck 
on just the United States and everybody then turning back 
against us.
    So it is complicated. It is going to take some time. We 
have got to figure this out. We have had some problems. That is 
what happens with complicated situations. It is not easy. If it 
was easy, anybody could do it. And so it is not easy for the 
United States of America. And when you look at this world that 
is smaller, you know, we got to deal with our--all of our other 
allies in the region who have their interests, also.
    And in today's world, they are not just saying, ``Oh, we 
are going to just do what the United States says against our 
own self-interest.'' They have their self-interest, also. And 
we got to figure out how we weigh that in so that we can knit 
and weave and put this thing together so that we don't have an 
artificial result that only lasts for a short period of time. 
So I understand that it is difficult.
    And so my first question is going toward what has been 
difficult with the Iraqi Government--past Government. And I 
know there has just been an agreement with Baghdad and Erbil. 
And so my question is: How is that?
    Because I know that, you know, when you look at Kurdistan--
and that is, you know, a difficult situation there, et cetera, 
historically--and we--and the Maliki government, we--you know, 
they were not doing the right thing so that the--Kurdistan was 
getting some of the dollars that it needed from the central 
government.
    So could you tell me, how is this landmark agreement that 
was reached--I think it was just reached last week, again, 
between the central government and the Kurdistan Regional 
Government.
    You know, what is their--what is the likelihood that it 
will hold? And how will payments be made to the Kurds so that 
we could try to fix this scenario that has been also, 
historically, something that has been a problem in the past?
    Ambassador McGurk. Thank you for your excellent question.
    And you are absolutely right. This is an extremely 
complicated situation. It is viewed differently from every 
capital we go to. It is viewed differently from different 
groups within the countries that face--in the conflict zone.
    And the Middle East right now is going through a historic 
transformation. It is up to us to define American interests 
very acutely and then protect and advance those interests, 
which we are working to do with our coalition partners.
    The oil deal is really significant because it is something 
we have worked on for almost 10 years. We almost got there back 
in March. The terms of the deal that was reached last week was 
the same deal that was on the table in March, but simply 
couldn't get over the line with the Government that was in 
place back then.
    The new Government, as I mentioned in my testimony, is 
totally different across the board, more pragmatic actors, and 
people are able to get together around a table and actually 
figure it out, and they figured out a win-win solution.
    And under this solution, the Kurdistan region will export 
about 550,000 barrels a day, 300,000 barrels coming from 
Kirkuk. And if you know Iraq, that is a very controversial part 
of the landscape. But taking oil from those fields and 
exporting it through the north, through the Kurdistan region 
and then to Ceyhan in Turkey, about 300,000 barrels from 
Kirkuk. All of that revenue will come into the central account, 
and 17 percent of it will go to the Kurdistan region. It is a 
breakthrough accord.
    And another part of it is $1 billion within the new budget 
will go to the Kurdish Peshmerga. So for the first time, the 
Iraqi Government is very clearly saying, ``We will fund our 
brave Kurdish Peshmerga fighters who are fighting alongside us 
against ISIL.'' This is a big deal. It is a breakthrough.
    Now, will there be problems in implementation as we move 
forward? Yes. And we will have to work through those, and the 
Iraqis will work through those. But it is a significant sign 
that they got this done. It is a very hopeful moment.
    And I was on the phone with the Iraqi leadership in 
Baghdad, with the Kurdish leadership in Erbil, very shortly 
after, and there was really a mood of tremendous optimism, 
something I have not heard in some time, and I have worked on 
this specific issue for a period of years.
    So I think your question is a very insightful one. And I 
think the oil agreement is just indicative of where we are in 
Iraq and the foundation that we have built, given where we were 
6 months ago today. It was hard to see back then where we might 
be today, but it really gives us some hope for the future.
    But, again, Iraqis will have to work out the details. It 
will be difficult. There will be setbacks, as you said. There 
is never anything lingering here. Nothing is easy. It is 
complex. But it is a--it was a significant breakthrough and a 
testament to the Iraqi leadership to really get it done.
    Mr. Meeks. Thank you.
    Chairman Royce. Mr. Joe Wilson of South Carolina.
    Mr. Wilson. Thank you, Chairman Royce, for your determined 
leadership. And, Chairman Royce, thank you also for your early 
warnings of the threat of ISIS to American families.
    And, Mr. Ambassador, thank you very much for being here 
today.
    The American people need to know the threat of the 
murderous ideology of ISIS. Last week ABC News reported an ISIS 
spokesman, Abu Mohammed al-Adnani, called upon followers in the 
U.S. and Europe to attack members of the military.
    He went on to say, ``Do not ask for anyone's advice and do 
not seek anyone's verdict. Kill the disbeliever, whether he is 
a civilian or military, for they have the same ruling. Both of 
them are disbelievers. Both of them are considered to be waging 
war.''
    This is a grotesque ideology that we face and our coalition 
partners face, and I believe it is important that we never 
forget how grotesque it is. Additionally, we need to know that 
jihadists carry signs in English that are very clear, ``Death 
to America,'' ``Death to Israel.'' Their creed of mass murder 
is, ``We believe in death more than you value life.''
    Having that in mind again, you have got quite a challenge, 
but we do have allies. And I am particularly grateful. The 
Kurdish Regional Government in Iraq has been a success story of 
economic development for its people and as opposition to 
extremists. The American no-fly zone saved thousands of lives.
    The administration claims the Kurdish Peshmerga are our 
primary U.S. partners in the efforts against the Islamic state; 
yet, as of mid-October, the administration has only provided 
rifles, small arms, ammunition, mortars, and RPGs to the 
Kurdish forces.
    I am really concerned that the President's actions don't 
match the threat. Does the administration intend to be more 
robust in equipping the Kurdish forces to commence offensive 
operations against ISIS? And under what timeline?
    Ambassador McGurk. Let me discuss the situation of arming 
the Peshmerga because I have been involved in it. And I think 
we have worked out with them two detailed lists, one in August 
and one in September, and then with this Government of Iraq. 
And we have delivered everything on those lists.
    And, again, I just want to go back to the fact that we have 
a new Government now. Every request for weapons systems from 
the Kurdistan region has been approved by the new Government.
    We have a new Minister of Defense. He is a Sunni Arab from 
Mosul. One of his first trips was going up to Erbil to see 
President Barzani, and he has committed to getting the supplies 
to the Kurds that they need.
    I was just in Berlin last week. The Germans are supplying 
the Peshmerga, with the consent of the Government of Iraq, 
significant antitank munitions.
    So we are very focused on this. We are acutely focused on 
it. But what is important is that, unlike some of the tension 
we had with the last Government, we have very strong 
cooperation now.
    There has been about 40 cargo flights. They land in Baghdad 
first, but then they immediately go into Erbil to supply the 
Peshmerga with the weapons and the support that they need. So 
we are working on this every day.
    We have our joint operation centers set up in the Kurdistan 
region. I have been to them. I went to Dohuk to see President 
Barzani when he was commanding some of his units in an 
offensive near the Erbil border crossing.
    And we are working with them every day. But we worked 
through this, and our military colleagues worked through, 
``What are the requirements? What do you need? How do we get 
them?''
    We have went around the world to source getting T-62 tank 
rounds to make sure that the 100 tanks that the Kurds have, 
Soviet air tanks, which are pretty devastating against ISIL, 
are fully resourced with the ammunition that they need.
    So this is an ongoing day-to-day activity, and we are fully 
seized of it.
    Mr. Wilson. And do you anticipate that the Peshmerga would 
be on offensive operations and not just defensive?
    Ambassador McGurk. Well, they are on offensive operations, 
Congressman. They have taken back nearly all the territory that 
was seized from ISIL when ISIL launched its offensive in 
August, the one exception being Sinjar, and we think that that 
will kick off after the winter season.
    And the Peshmerga--importantly, they are working very 
closely with Iraqi forces to take back the Mosul Dam. The 
Kurdish--the Iraqi Government's counterterrorism service was 
working side by side with the Peshmerga to take back the Mosul 
Dam. And the operation at the Erbil border crossing was done in 
coordination with Sunni Arabs tribes in that area.
    So it is a significant development. Again, given where we 
were 6 months ago and given where we were after ISIL moved into 
the Kurdistan region, the Kurds have pushed back very 
effectively. They have taken hundreds of casualties, as have 
the Iraqi security force, and you have remember that.
    And we are working with them in our joint operation centers 
to help plan and conduct operations and, when they mount their 
operations, we provide them with air cover and air support.
    Mr. Wilson. And I want to join with my colleague from 
Queens, actually a native of South Carolina, and point out how 
pleased I am that there has been an agreement in regard to oil 
between Iraq and the Kurdish Regional Government.
    I yield the balance of my time.
    Ambassador McGurk. Thank you.
    Chairman Royce. We go now to Albio Sires of New Jersey.
    Mr. Sires. Thank you, Mr. Chairman, for holding this 
hearing, and thank you for being here with us and always being 
straightforward with us.
    You know, as I sit here in these hearings and we talk about 
retraining and training--and I just read a report about 2 or 3 
weeks ago where they had--the Iraqis had 50,000 soldiers that 
were on the payroll that never showed up. I mean, to me, this 
is what we are going to try to retrain again and spend billions 
of dollars and maybe not be as effective as they were.
    The other thing is, you know, we talk about a new 
Government being more pragmatic. I think it is just the reality 
that has hit them that, if they really don't work and change 
their ways, they are going to lose their country.
    I mean, people have poured billions of dollars into this 
country to try to straighten them out and, well, now they 
become pragmatic. I think it is just a reality that has hit 
them that they have to.
    And, you know, implementation of some of these accords--I 
was concerned with the Kurdish getting all the weapons that 
they needed, but they had to go through Baghdad. So it was 
difficult for them to get it to the Kurdish. I mean, these are 
the kind of things.
    And the last thing I will just talk about is spreading the 
conflict in the area. I read some articles where Lebanon was 
concerned that there was activity in Lebanon and they are 
asking for more arms, you know, and more support. So could you 
speak to that also.
    Thank you very much.
    Ambassador McGurk. Well, Lebanon was a participant at the--
at the conference we had in Brussels last week, at the 
Coalition Ministerial chaired by Secretary Kerry. They were at 
the table with their foreign minister, as were the other 
neighbors.
    Turkey, for example, has 1.8 million refugees from Syria. 
And we have to remember that the burden that that is taking on 
Turkey and Lebanon and Jordan is a tremendous toll. So we are 
doing all we possibly can to help shore them up, but it is 
extremely difficult.
    And, again, the Lebanese are very concerned about this, in 
particular, the inroads that ISIL is making into some of its 
border regions and the al-Nusra Front, which is holding some 
Lebanese soldiers and tragically executed one of them last 
week.
    So all of our partners in the region, the countries 
neighboring Syria--Lebanon, Iraq, Turkey, and Jordan--are 
central to the efforts of this coalition, and what we heard in 
Brussels around the table, 60 different members of the 
coalition, countries from all around the world, talking about 
the fact that we need to help our friends who are suffering 
from this crisis.
    So we are very focused on it. And I can come follow up with 
a more detailed briefing, particularly on Lebanon or other 
neighbors.
    Mr. Sires. Well, I am happy you raised the issue with 
Jordan because I understand that they are getting more 
aggressive--more active in demonstrations and aggressive 
activities.
    Can you talk a little bit about that.
    Ambassador McGurk. Well, you know, Jordan is also a 
frontline state and, as you know, the refugees that they have 
taken in has really taken a toll on their resources.
    King Abdullah was just here. I think it was last week. 
General Allen and I saw him in Oman about a month ago working 
very closely with Jordan both on the security side about 
shoring up the defenses of their border and, also, in trying to 
limit the extremist presence in southeast Syria.
    There is a lot of focus on the Aleppo pocket in northern 
Syria, which is a focus of the Turks and us and everyone. But 
Jordan is very focused on the other regions of Syria on their 
border where ISIL has a tremendous presence, and we need to 
help them.
    But Jordan is a frontline state, and that is where we are 
providing them substantial security assistance and, also, 
humanitarian assistance to deal with the refugee crisis.
    But, again, our friends in the region--Lebanon, Jordan, 
Turkey, Iraq--are just impacted by this crisis every day, and 
that is why part of the President's central policy in this 
counterterrorism support and building partner capacity is 
focused on this very issue, the neighbors of Syria and making 
sure that they can withstand this crisis the best they can.
    Mr. Sires. Can you talk a little bit about Camp Liberty and 
any of the abuses by the Iraqis. I know you are on the 
discussion.
    Ambassador McGurk. Well, I get a briefing on this every 
single day, and I get reports from both the residents and, 
also, from the United Nations. And, as you know, the United 
Nations monitoring teams confirms to us about humanitarian 
supplies and the overall situation at the camp. We look at it 
every single day.
    My colleague Jonathan Winer, who is our senior advisor on 
the MEK resettlement, he is in Albania today with a team--
interagency team with DHS represented as well. And we have 
gotten about 600 residents of Camp Liberty out of Camp Liberty 
and out of Iraq to safety over the past year, and we are 
looking to increase that number this year.
    And Albania has been very helpful in this regard. And 
Jonathan Winer has really done a tremendous, heroic, courageous 
job at getting this moving. And I think the new Government will 
be more cooperative.
    And we want to get all of the residents of Camp Liberty 
that testified here before out of Iraq to safety. That is our 
goal. And we are working with partners around the world to try 
to achieve that goal.
    And right now Albania has been extremely cooperative, and 
we should thank them for taking in hundreds of residents. And 
the residents are assimilating quite well in Albania.
    But Jonathan, my colleague, Mr. Winer, is there now 
discussing this issue, and I am sure he would be happy to come 
follow up with you.
    Mr. Sires. Thank you very much.
    Chairman Royce. Per that issue, I would just point out when 
Senator Kerry was here, we raised this issue of, you know, on 
supporting the Kurds, not selling them the heavy weapons, the 
heavy equipment, and the armor they needed, the antitank 
missiles, the NED. I quote from his testimony. He said, ``You 
said the administration is responsible for sending all these 
weapons through Baghdad. No. We are not. You are. We are 
adhering to U.S. law passed by Congress. If you want to change 
it, fix it, we invite you.''
    I would just point out that I put out bipartisan 
legislation to change that to allow us to directly sell the 
weapons they needed to the Kurds, and then the administration 
opposed the legislation that we had been invited to put in to 
change it. So just for the record, I would raise the point that 
the argument has changed.
    Mr. Meeks. Mr. Chairman, I feel your pain on Crimea, too.
    Chairman Royce. Yes. It is a moving target and a moving 
argument.
    We go now to Judge Poe of Texas.
    Mr. Poe. I thank the chairman.
    There is no question about it that ISIS, as I call them, 
they are a bunch of bad people who just commit murder, and we 
are doing battle with ISIS. The United States has been in the 
Middle East with boots on the ground for a long time.
    Ambassador, would you say that the United States is at war 
with ISIS or not?
    Ambassador McGurk. Congressman, having seen it up close, I 
would say we are at war with ISIS, yes.
    Mr. Poe. It seems to me that our strategy is twofold at 
this point, or maybe threefold. Send aid to different groups, 
countries. They are 60 something nations that I understand are 
in the coalition to fight ISIS. One is to do air strikes. As 
the chairman has mentioned, the success of those air strikes 
depends on who you are talking to. I do not believe they have 
been quite as successful as we had hoped they would be. The 
other is to take Syrian moderate rebels, vet, train, and equip 
them to go back to Syria and defeat ISIS.
    How many of those people have been vetted, trained, and 
equipped and sent back to Syria to fight ISIS?
    Ambassador McGurk. Congressman, again, I have to--it is a 
DoD program and they can----
    Mr. Poe. It is none. Isn't it correct, Ambassador? I mean, 
you are the Ambassador. You represent the State Department of 
the United States. We are a war with this country--or at war 
with ISIS. You can't tell me politically whether we have 
armed--vetted, armed and trained anybody yet and sent them back 
to Syria to fight ISIS? You can't give that answer?
    Ambassador McGurk. No. I can answer that question. I think 
I did answer it. The answer right now is no, and----
    Mr. Poe. So none.
    Ambassador McGurk [continuing]. It was designed--it was 
designed to be a long-term program, and we hope----
    Mr. Poe. I understand, Ambassador. No. You wait a minute. I 
am asking the questions. You give the answer.
    The answer is we have not trained any and none of them are 
back over there. Meanwhile, ISIS is beheading people and 
committing all kinds of atrocities, but our plan, if I 
understand our strategic plan, it is to help aid, it is to drop 
bombs, it is to train mercenaries to go back and fight ISIS in 
Syria, none of which have been trained.
    How long is it going to take before we get all those people 
that are being trained in Saudi Arabia back in Syria to fight? 
How long do you think it will take?
    Ambassador McGurk. Well, Congressman, the program is to 
train 5,000 per year, and the training, we hope, will start in 
March. So----
    Mr. Poe. So a year from March?
    Ambassador McGurk. And the program is to build----
    Mr. Poe. A year from March?
    Ambassador McGurk. About 5,000 by then. We have to be 
very----
    Mr. Poe. Excuse me, Ambassador. I am not clear.
    Will it be 5,000 in March that will be trained. Or will it 
be a year from March 2016 before we have those 5,000 fighters 
that we send back to Syria?
    Ambassador McGurk. It is 5,000 trained per year, and part 
of the reason is because of the vetting standards and that we 
are being very careful about this, but we are not sitting on 
our hands watching----
    Mr. Poe. Excuse me, Mr. Ambassador. Answer the question.
    Is it 5,000 in 2016 in March where we hope that is our plan 
to have them trained by then?
    Ambassador McGurk. The training, we hope, will begin in 
March. So it is----
    Mr. Poe. But it will take a year to train 5,000 people.
    Ambassador McGurk. Yes. That is right.
    Mr. Poe. So March 2016, then we have a plan; then we have 
fighters; then we send them to Syria. There is no telling what 
ISIS can do in that year and however many months it is.
    Does the United States have some other strategic plan other 
than arming these folks that aren't going to show up until 
2016, dropping bombs that are marginal whether they have been 
successful and helping with military aid to some of these 
coalition countries? Is there a strategic plan overall that you 
know about in the State Department?
    Ambassador McGurk. Yes. The train and equip program is one 
small element in an overall campaign, and this is a multiyear 
campaign, and phase 1--phase 1 is Iraq. What we are doing in 
Syria right now is degrading ISIL's capacity, and every time we 
have had a local force on the ground that we can work with, and 
Kobani is a good example of this, we are working with free 
Syrian----
    Mr. Poe. Reclaiming my time.
    What are we doing in Syria right now? I mean, people are 
dying in Syria, and the calvary isn't showing up until 2016, 
the way I understand it. Is that correct?
    Ambassador McGurk. Those trained and equipped units are not 
the only units on the field that we can work with in Syria, 
Congressman.
    Mr. Poe. Who else are we working with in Syria.
    Ambassador McGurk. Well, we are working right now in Kobani 
with a number of units, and we are killing about 100 fighters--
--
    Mr. Poe. Who are these people we are working with?
    Ambassador McGurk. Well, Iraqi Kurdish Peshmerga, thanks to 
a deal we worked out with the Turks to open up a corridor from 
the Kurdistan region, and they----
    Mr. Poe. Are they working in Syria or are they working in 
Iraq?
    Ambassador McGurk. In Syria. We brought Iraqi Kurdish 
Peshmerga from Iraq into Kobani.
    Mr. Poe. Last question. I am sorry. I am out of time.
    Last question: Are we going to put more boots on the 
ground, American military, in the Middle East to defeat ISIS?
    Ambassador McGurk. The President's policy is not to put 
combat forces on the ground in Iraq, but we have advisors, 
trainers----
    Mr. Poe. Be careful right now. Middle East. I am not going 
to talk about Iraq. In the Middle East, are more Americans 
going over to the Middle East to defeat and fight ISIS?
    Ambassador McGurk. Well, we have about 30,000 troops in the 
region now.
    Mr. Poe. Are more Americans going over to the Middle East 
to defeat and fight ISIS, other than what is already there?
    Ambassador McGurk. Again, right now, I think we have a 
pretty large substantial force deployment in the Middle East. I 
don't see the need for more right now, but, again, I have to 
defer to my DoD colleagues----
    Mr. Poe. DoD because you don't know.
    I yield back.
    Chairman Royce. Gentleman from Fairfax, Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Ambassador, certainly I think most of us wish success 
in your endeavor, but I have to confess to you, listening to 
you makes one, you know, feel that one is in a scene in the 
Wizard of Oz where we are being counseled to pay no attention 
to that man behind the curtain, meaning the previous Iraqi 
Government, which we supported way too long, in terms of Maliki 
and the damage he did in absolutely severing relations between 
the Shia and the Sunni, which contributed mightily to the rise 
of ISIS and, frankly, to the loss of moderates, not only in 
Iraq but spill over in Syria.
    I mean, you said to us, you know, pay attention to the fact 
that we have a new government. Yeah. It is kind of relatively 
new, but when one looks at measures of progress, one despairs, 
frankly, Ambassador McGurk. I mean, I am fixated on what 
constitutes progress. We have used metrics in the past about 
how many Iraqi troops we trained. Well, how did that work out 
for us? They melted away, and now we have ISIS as one of the 
best-funded, best-equipped terrorist organizations on the 
planet, thanks to U.S. assistance--not because we intended it 
but because our ally in Iraq collapsed comprehensively.
    Now we are talking about, well, maybe what we have to do is 
have a smaller, you know, fast force that can go in. We well 
train them. We won't train hundreds of thousands. And they will 
do it.
    You have talked, in response to Judge Poe, about the 
training. We all hope that works, but I don't think--I don't 
know anyone who seriously thinks that you can train 
effectively, even with successful vetting, 5,000 insurgents who 
are moderate and maybe secular, and they are going to be 
reintroduced to Syria and turn the tide. In fact, all of the 
indications are the moderate, you know, part of the insurgency, 
such as it is, has collapsed in Syria, is actually losing 
ground catastrophically, almost to the point of extinction.
    And so you cited decentralization, security reforms and the 
fact that the new government is reaching out finally to 
regional capitals, as if that is going to turn the tide. Maybe 
you didn't intend for that, but I guess I would like to see 
efficacious metrics with respect to the subject of this 
hearing, which is, are we making progress?
    How do we measure progress in an efficacious way, not a 
feel-good way, not a check-the-box way? How do we actually 
measure progress, given the fact that this administration has 
said the end goal with respect to ISIS is its destruction? Not 
deterring it, not pushing it back--its destruction. I don't 
hear anything from your testimony, and I hear nothing in the 
so-called metrics of progress reported here today that would 
give me or, frankly, anyone at this dais confidence that we 
know what we are doing and that we have any fair chance at all 
to return to the Wizard of Oz and it actually be a powerful 
wizard. I just don't see it.
    Could you please comment on the metrics we have got and the 
reason we should be confident that those metrics will lead to 
``progress''?
    Ambassador McGurk. Well, it is a very good question, and we 
try to take an empirical data-driven approach as much as 
possible to what is a very complex situation.
    I mean, one data I look at every month are the suicide 
bombers coming into Iraq, and we have had about--we went from 5 
to 10 a year in 2011, 2012. It went up to 30--almost 30--5 to 
10 a month in 2011, 2012. Went up almost to 30 a month, 
sometimes 50 a month.
    The month before the Iraqi elections in April we had 50. It 
is coming down, when I look at the indicators. I can't tell you 
right now if that is a trend or if that is simply an anomaly, 
but right now, it is coming down.
    We are looking to see the reforms that this new government 
is making, and without an Iraqi commitment long term, we 
probably won't succeed, but if you look at what the government 
has done in 100 days: It has abolished the office of the 
commander in chief, which was an irritant to the Sunnis and 
also which centralized all security responsibility in the 
office of the prime minister. It has terminated almost three 
dozen problematic security commanders. It has identified, as it 
has said, 50,000 ghost soldiers on the roles, which is an anti-
corruption mechanism. So it is taking steps that we wanted to 
have taken.
    To change the government, Congressman, we couldn't just 
say, You know what, we have to have a new government. We had to 
get to elections. Iraqi had--they had elections on April 30th, 
earlier this year. For those elections to happen, we had to 
work over the course of 2013 to get the election system in 
place, to get the mechanism in place, and to have U.N. 
Oversight to make sure that they were genuine and credible. 
Those elections did happen on April 30th, and they set the 
conditions to get to a new government.
    So this is really a multiyear process, but we have a new 
government now, and it is taking some measures that we find 
promising----
    Mr. Connolly. As I said, Mr. Ambassador, I want you to 
succeed. I hope you succeed, but just as I think some of the 
criticism of the administration with respect to Syria was very 
facile--and I single out two prominent members of the other 
body who are all too quick to say they were easy answers and 
the administration wasn't doing enough, as if we knew who to 
support in Syria. But, similarly, we on our side cannot be 
overly facile either in the difficulties we face and the goals 
we set for ourselves, and I am very fearful at the end of the 
day that those goals are not realizable; they are not 
realistic; and we can't really set up metrics that are 
efficacious.
    Thank you, Mr. Chairman. My time is up.
    Chairman Royce. Mr. Matt Salmon of Arizona over.
    Mr. Salmon. Thank you, Mr. Chairman.
    Mr. Ambassador, I apologize. I am just getting my voice 
back. You are probably going to be real thankful about that, 
but the fact is I think many members today on both sides of the 
aisle have expressed concerns that maybe the administration's 
posture is more defensive than offensive, and that, as such, 
the ISIS controls roughly as much property as they did 5 months 
ago or territories they did 5 months ago. The President 
described the training of the Free Syrian Army as the tip of 
the spear on the ground game, and we are learning that they are 
not even going to start the training until March of next year.
    Now, yesterday, the Secretary left the door open for U.S. 
ground troops at the Senate Armed--or excuse me, Senate Foreign 
Affairs Committee, and for the record, that is a pivot. You 
have stated that the President has promised over and over 
again, we didn't even need to have you say that. We have heard 
him say the same things, and I believe that ultimately U.S. 
Ground troops are going to be essential to completely defeat 
and not just contain ISIL, as I believe the current 
administration policy is.
    So my first question is, when can we expect the 
administration to come to Congress for an authorization for the 
use of military force, and I don't believe that the one that 
was passed 10 years ago is adequate. This isn't a hybrid. I do 
want to do everything within my power, as I believe other 
members have said, of eradicating and defeating ISIS and not 
just containing them.
    My second question is that recent reports indicate that our 
allies are concerned about the U.S. commitment to this fight, 
and some are threatening to withdraw from the coalition. What 
are we going to do to reassure them and keep them in the 
coalition? And what are we going to do to get back on the 
offense and not so much on the defense?
    Those are my questions.
    Ambassador McGurk. On the AUMF, Congressman, as you know, 
Secretary Kerry devoted an entire session to this yesterday 
before the Senate Foreign Relations Committee, and he made 
clear that we are prepared to work very closely with the 
Congress. There is legislation being drafted in the Senate, 
particularly from Chairman Menendez, which the Secretary has 
said we are willing to work on and we find some very promising 
elements there. I think the Secretary was also pretty clear 
that the President has been clear that his policy is that U.S. 
military forces will not be deployed to conduct ground combat 
operations against ISIL. That is the policy of the 
administration. We also don't want to tie the hands of the 
commander in chief given a very uncertain environment, and you 
could face an exigent situation. But this will come within the 
give and take with Congress about what the actual terminology 
of the AUMF will be.
    In terms of the coalition, this is why it was important 
that we had this conference in Brussels last week, because we 
brought every member of the coalition together. They signed a--
joined a very detailed joint statement, which lays out the way 
forward, and I will make sure you have that if you haven't seen 
it. And it is significant because it brought countries from all 
around the world around the same table focused on the same 
problem and about how to proceed.
    So that is the kind of initiative that could help keep the 
coalition together. And General Allen and I in our travels are 
very focused on this, and there is going to be a lot more over 
the next month in terms of coalition management and keeping it 
together, but right now, I would think the commitment is very 
firm.
    In terms of offense, I just have to say--I mean, the last 
time I testified here, we had done no air strikes. That wasn't 
too long ago. We have now done, last I just looked, I got the 
most recent numbers, 1,219 air strikes; 689 in Iraq and 530 in 
Syria. Our coalition partners have done 208 of those air 
strikes, and what is different, I think, about past campaigns 
is that our air strikes now are focused on very precise 
intelligence. And we are striking with pretty devastating 
effect, and to date--and, you know, we have to be very careful 
about this, but we have been very careful about making sure we 
have no civilian casualties in these attacks, and that is 
something that--I saw General Austin in Bahrain just on Sunday 
for about an hour talking about the state of the overall 
campaign, and he is very focused on that because we want to 
keep the population, as much as possible, on our side, and our 
strikes to date have been very precise, very effective. And I 
can just tell you by getting the reports every morning, we are 
hitting the targets we seek to hit. We are hitting the 
leadership targets. We are hitting the mobile refineries. We 
have hit about 22 of them, which is really impacting ISIL's 
ability to finance itself. We are hitting the command and 
control cells.
    We have completely destroyed ISIL's ability to amass and 
maneuver force, and what it was able to do so effectively up 
until Mosul and up until this summer, it masses force. They 
would do these swarming maneuver tactics with heavy armored 
vehicles and basically overrun anything in its wake. It can't 
do that anymore, and that, to me, is an empirical sign of 
progress that we are making, but we have to keep at it.
    Ms. Ros-Lehtinen [presiding]. Gentleman's time has expired.
    Mr. Higgins of New York is recognized.
    Mr. Higgins. Mr. Ambassador, you had indicated earlier that 
the deal between Prime Minister Abadi and the Kurds in Erbil 
was a big deal, that the central government in Baghdad will 
permanently resume payments to Kurdistan, representing 17 
percent of the national budget, including $1 billion to pay for 
the salaries of the Peshmerga and weapons for them as well.
    And why is it important? Because, to date, there hasn't 
been an effective countervailing fighting force in Iraq. Now 
there appears to be. The Peshmerga estimates are about 190 
fighters. They have proven to be reliable. They are 
experienced, and they have also proven to be reliable allies to 
the United States in our involvement in Iraq.
    Iraqi officials now want to push for a winter offensive in 
Mosul, and American officials, it has been reported, are 
concerned that this schedule is a little bit too ambitious.
    Can you explain that?
    Ambassador McGurk. Let me first say, on the Peshmerga, I 
think one additional point I want to make of the Peshmerga, 
addressing your question and about how we are kind of in a new 
era here, part of our plan is to train and equip, as you know, 
12 Iraqi brigades. Three of those would be Kurdish Peshmerga, 
and those units will receive the same Western weapons, 
vehicles, equipment as the Iraqi units that we are training and 
equipping. And this is all done in cooperation between--between 
Baghdad and Erbil. So I think that is a significant point to 
put on the record.
    In terms of Mosul, again, it is an ongoing discussion we 
have with the Iraqis and our military colleagues who are in the 
field about how best to prosecute this campaign. I would just 
caution that I think we have to be very prudent in our 
expectations, and the one thing we want to do is manage 
expectations. I have said repeatedly, the President has said, 
the Secretary has said this will be a multiyear campaign, and 
nobody wants to rush into Mosul or a city that is held by ISIL 
before the conditions have been set. So it is an ongoing 
conversation with the Iraqis about how to proceed, when to 
proceed, when to proceed in one area and not another.
    Mr. Higgins. Toward the goal of managing expectations, 
then, how many ISIS fighters are in and around Mosul today?
    Ambassador McGurk. It is hard to say. We think it is 
probably, the last I have seen, in the low thousands. The 
leaders in Mosul and Ninawa we believe we have taken off the 
battlefield.
    Mr. Higgins. Give me that number again, estimate.
    Ambassador McGurk. The last I have seen are the low 
thousands.
    Mr. Higgins. Meaning what? 3,000?
    Ambassador McGurk. I can't give you a precise number, but 
that sounds about right.
    Mr. Higgins. Okay. This hybrid force that you talk about 
between ISIL and the--or between the Peshmerga and the Iraqi 
National Army would represent 20,000, 25,000 fighters.
    Ambassador McGurk. Roughly, depending on how you count the 
size of a brigade.
    Mr. Higgins. 20,000, 25,000 is an responsible estimate.
    Ambassador McGurk. It is reasonable.
    Mr. Higgins. Pardon me?
    Ambassador McGurk. Reasonable.
    Mr. Higgins. What is the size or the population of the City 
of Mosul?
    Ambassador McGurk. It is about 1.5 million.
    Mr. Higgins. 1.5 million. And we don't believe that a 
winter of offensive is advisable right now because the hybrid 
fighting force is not ready yet, hasn't had the proper 
training?
    Ambassador McGurk. Well, we want to set the conditions 
before. I mean, one thing we have learned is that you don't 
want to move into----
    Mr. Higgins. And what are the conditions?
    Ambassador McGurk [continuing]. An urban combat environment 
before the conditions have been set.
    Well, you are going to work with the local population. We 
are working, in fact, with the governor of Ninawa Province and 
other local leaders in Ninawa who are now located in regions--
in areas right near Mosul, but in terms of making sure that a 
police force is set and making sure that once ISIL is kicked 
out of Mosul, that there is something to maintain law and order 
and bring services and stability to the community there, which 
will have been suffering under ISIL's rule for some time.
    The point is you have to get this right. You can't just 
rush into it, and that is why I want to--that is why we have 
these joint operation centers and are working day after day 
hand in glove with the Iraqis to plan these operations.
    Mr. Higgins. Would you characterize ISIS as being on the 
defensive in Mosul right now?
    Ambassador McGurk. It is hard to say. It is hard to say. It 
certainly----
    Mr. Higgins. Has their momentum been broken?
    Ambassador McGurk. I think there are signs that the tide is 
beginning to turn, that the population is turning on them, 
but----
    Mr. Higgins. Has that hurt the recruiting efforts?
    Ambassador McGurk. Again, it is hard to say, but there are 
enough signs that they are having a hard time in Mosul, 
specifically paying their fighters. They are having a hard time 
getting fuel.
    You know, the Baiji refinery, Congressman, they tried to 
seize the Baiji refinery starting in June. They needed the 
Baiji refinery for the fuel they would need to make sure that 
Mosul had the lights on. They failed in seizing the Baiji 
refinery. There was a very heroic defense put up by Iraqi 
fighters for 6 months in the Baiji refinery, and Iraqi forces 
just a couple weeks ago, with our help, were able to break that 
siege, and ISIL now has no chance of seizing the Baiji 
refinery.
    Mr. Higgins. My time has expired. Thank you.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Marino of Pennsylvania is recognized.
    Mr. Marino. Thank you, Madam Chair.
    Welcome, Ambassador. It is good to see you again, and as we 
say in Pennsylvania, your position is--you are between a rock 
and a hard place here with us and the talks that are going on 
at the White House.
    I am a member of the NATO Parliamentary Alliance and 
routinely get comments from our members asking, is the 
President taking this seriously? Is the President taking ISIS 
seriously? And after listening to Senator Kerry's testimony 
just recently, I get the impression--and I am just assuming you 
folks may be frustrated, too--but the President is trying to 
micromanage this and not listening to you and to the military 
personnel. I do speak up to my other NATO colleagues and say, 
``Anytime you want to join in and contribute, we would be more 
than glad to have you onboard.''
    But, with that said, you know, we didn't attack ISIS when 
they were leaving Syria going into Iraq. I think that was--I 
think that was a major mistake, and I want to ask you--and I 
know what you talk about in the Oval Office and what you can 
say here, not by your choice, may be a little different, but we 
made a mistake by not doing that. Would you agree with me?
    Ambassador McGurk. I--what is your question?
    Mr. Marino. By not attacking ISIS when they were leaving, 
because remember, the President said in an interview with The 
New Yorker magazine that, you know, they were junior varsity 
basketball players. What has changed that they are not junior 
varsity anymore, and why did we not--was there an opportunity 
to attack them leaving Syria going into Iraq?
    Ambassador McGurk. Well, I testified about a year ago some 
things that we were doing at that time, but all I can say, as 
soon as Mosul fell, I was in Iraq. I was on a video conference 
with President Obama, and we acted immediately, which my 
testimony laid out, to set the conditions for what we are doing 
now. And we--the President made decisions within the earliest 
hours of Mosul falling to get Special Forces into the field to 
see what was happening, to get our intelligence overhead, to 
set up joint operation centers. And that helped set the 
conditions for being able to fight back and, most importantly 
for working with the Iraqis, to get a new Iraqi Government up. 
The new Iraqi Government is the strategic foundation we have 
that we did not have back in June or we didn't have, really, 
for the past year.
    Mr. Marino. I am not going to second guess you and sit here 
and question the decisions on getting the information that we 
needed before you could go in and do what you decided to do. I 
mean, I would--just would not do that, but should we increase 
air strikes, and can we increase air strikes? I do take 
particular notice and agree with you on your urban combat 
situation. So could we increase air strikes and, you know, 
pound ISIS even more?
    Ambassador McGurk. I think, and going to the point of how 
careful we are being, there is--I think you will see air 
strikes increase as Iraqi offensive operations increase, 
because when there are ongoing operations, we are able to 
strike targets in support of those operations and our 
limitations are not as narrow as when we strike targets simply 
by our intelligence picture. So when Iraqis are moving in the 
field and then when ISIL begins to show itself, our air strikes 
increase. So you might see an increase in the numbers, but, 
again, the numbers I just gave are pretty significant.
    I just got a report when I was coming here in the car. We 
have done--over the past couple days, we have struck targets 
just in Iraq, in Mosul, Ramadi, Al-Qa'im, Kirkuk, Baiji, 
Samarra. So, you know, we are--to say we are extremely serious 
about this, we are offensive minded, and we are taking the 
fight to ISIL every single hour.
    Mr. Marino. Would we be in a better position, and I am 
playing Monday morning quarterback here, but would we have been 
in a better position to leave troops in Iraq instead of pulling 
them out?
    Ambassador McGurk. I will let the historians sort that out. 
There is a lot that went into those decisions, but I am really 
focused on where we are right now.
    Mr. Marino. Well, you pretty much answered the question for 
me, and I know you have a fine line to walk, but there is no 
doubt in my mind we left there way too soon. It was the 
President's agenda, and now he realizes that we are up 
against--our backs are up against the wall here.
    So, with that, I yield back my time.
    Ambassador McGurk. Let me say if I could just answer----
    Mr. Marino. Yeah. Please, go ahead.
    Ambassador McGurk [continuing]. Real quick because it is 
significant to point out that we left in 2011 under an 
agreement in 2008, and one issue, from the moment we invaded 
Iraq, is that we invaded Iraq. We weren't invited into Iraq. 
What is significant about right now, and this was really 
apparent to me when I was in Iraq last month, that the Iraqis 
have now invited us in to help them. It is a totally different 
environment than our presence in the past, and it gives us kind 
of a new foundation in which to operate in Iraq is significant. 
Right up until the end of our presence in Iraq, it was always 
extremely controversial that we were there at all. But right 
now----
    Ms. Ros-Lehtinen. Mr. Ambassador, at this point, I, 
unfortunately, have to cut you off because I will recognize the 
remaining members to 4 minutes each because I know that you 
need to leave by 12:15.
    Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Madam Chair.
    Thank you, Mr. Ambassador for being here today to discuss 
the implementation as it relates to our strategy to defeat ISIS 
and to also have the opportunity to say thank you for your 
extraordinary service to our country in an area of tremendous 
difficulty. Like you, I believe there is no military solution 
to the conflict in Iraq and Syria. And I have continued to have 
very deep reservations about the efficacy of the military 
actions that we have taken, particularly as it relates to the 
equip and train vetted Syrian rebels. And my concern, of 
course, is that this will lead to a deepening of our 
involvement in a sectarian civil war. And I know many of the 
questions I have would be better answered by DoD, but to the 
extent that you can comment on these things, it would be 
tremendously helpful.
    And the first question I have is we have--the 
administration has spoken a lot about the importance of 
building an international coalition to fight ISIL on a global 
scale.
    Could you just share some more details about the progress 
that we have made in building that coalition, what the barriers 
have been to sustaining the coalition? Particularly, as it 
relates to the train and equip programs, what kind of response 
have we had from some of the more wary countries, and, finally, 
how are the countries working together to share the burden of 
responding to this global threat? And I note, in your written 
testimony, that only the United Kingdom, Belgium, The 
Netherlands, Canada, Australia, and Denmark are involved in the 
air strikes, so that there are no regional partners. And that, 
of course, raises a concern about kind of this notion of 
outside the region engaging in this military conflict.
    So would you talk a little bit about where we are in 
building a meaningful coalition, not just a kind of photo op, 
but people are really comitted to this effort and how they are 
sharing the burdens of this fight against ISIS.
    Ambassador McGurk. Thank you, Congressman.
    And, look, we built this coalition from scratch; 90 days 
ago this didn't exist at all. The conversations began in 
September at the NATO summit in Wales with the President and 
Secretary Kerry. Immediately after that, in Jeddah, we brought 
the GCC together and some other key partners. We had a meeting 
in Jeddah which issued a very strong communique. We then met in 
a broader group in Paris. And then in the U.N. General Assembly 
meetings here in New York, later that month in September, we 
began to build this coalition.
    In Jeddah, the focus with some of the GCC partners was in 
joining an air campaign in Syria, and once those air strikes 
started, you saw the regional states, Bahrain, Jordan, Saudi 
Arabia, UAE, and Qatar was also a part of those operations, 
join in that campaign.
    Since then, we have moved to really develop these 5 lines 
of effort with bringing countries from all around the world, 
and that is why 60 members joined in Brussels, for a 
cooperative effort along military, counter-finance, counter-
foreign fighters, humanitarian, and delegitimization. There is 
a different role for every country to play. So with the 
military side, we have the air campaign. We also have now 
substantial contributions developing to support the train/equip 
effort in Iraq. We have Qatar, Turkey, and Saudi Arabia 
supporting the train/equip effort for Syria.
    But really, most importantly also, on the other lines of 
effort on foreign fighters, President Obama chaired a pretty 
extraordinary Security Council session in September at the U.N. 
General Assembly, and Security Council passed a Chapter VII 
resolution on foreign fighters that had the most sponsors of 
any resolution in history, I was told. Over 100 sponsors, and 
we are now working--we go to capital after capital. I was just 
in Brussels addressing the EU Parliament, in fact, about 
implementing that resolution, and we are having some real 
progress.
    We are seeing countries pass legislation to cut down on 
foreign fighters. We are seeing foreign fighter cells broken 
up. And this wasn't happening 90 days ago.
    On counter-finance, the same thing. We have had--Kuwait has 
passed new legislation. Working closely with the Kuwaitis to 
shut down some problematic channels that we had been seeing, 
and working with other partners in the Gulf. So I could go on, 
but the coalition, I think, is actually extremely meaningful, 
and considering that we built it from scratch 90 days ago, and 
at these key events--and I saw President Obama and I saw 
Secretary Kerry work this directly with the world leaders to 
pull this together. It is really extraordinary, and then with 
the appointment of General Allen, it has just boosted our 
efforts around the world. So we are going to----
    Ms. Ros-Lehtinen. Thank you very much. Thank you.
    Mr. Cicilline. Thank you, Madam Chair. If I might just ask 
the witness to provide us maybe in a written response the 
status of those foreign fighter--the adoption of that 
resolution in each of the respective countries. Our last 
witness that appeared before us also referenced----
    Ms. Ros-Lehtinen. Without objection.
    Mr. Cicilline [continuing]. And I think we would benefit 
from a real understanding of----
    Ms. Ros-Lehtinen. Mr. Duncan of South Carolina is 
recognized.
    Mr. Duncan. Thank you, Madam Chairman.
    And, Ambassador, thanks for being here.
    I appreciate some of the comments made by Mr. Connolly form 
Virginia about the situation in Iraq and the collapse of the 
Iraqi army in the face of ISIS, and I just wanted to comment, 
maybe provide an answer for him, because I think it is the 
elephant in the room that nobody really wants to talk about, 
and that is fact that we prematurely left Iraq after the 
President had made a campaign promise to be out of Iraq by the 
end of his first term. And we failed to leave a contingency 
force there, even after Prime Minister Maliki offered immunity 
to U.S. troops there via Executive order because the President 
wanted to see the Iraqi Parliament cast a vote on that, which 
they did, and it failed, and so we don't have a contingency 
force that we need in 2014 and 2013, in Iraq, that could have 
faced off against ISIS.
    And so, Ambassador, I am sitting here listening to this, 
and the President really fails to articulate what success in 
Iraq or a success against ISIS or ISIL looks like. So I am 
asking you, in a little bit of my time, to define success. What 
does success look like to you against ISIS?
    Ambassador McGurk. Well, it is a three-phase campaign, 
Congressman, to degrade, dismantle, and defeat, and what we are 
really looking at, number one, in the first phase is helping 
the Iraqis control their sovereign space. Right now, they do 
not control a third of their country. So helping the Iraqis 
control their sovereign space is a critical test of how we are 
going to be doing.
    Degrading ISIL in Syria, because ISIL is controlling a huge 
swath or territory in Syria, is number two, and leading 
ultimately to a political transition in Syria, which is going 
to be extremely difficult.
    But in the first phase of this campaign, it is helping the 
Iraqis regain control of its sovereign territory.
    Mr. Duncan. Okay. Let's shift gears here, because I think--
I think success against ISIS is reclaiming all the land in Iraq 
that we lost so much American blood and American treasure 
liberating. I saw it as a liberating action, and then we can 
talk about the Syrian civil war and who may or may not be 
friendly there that we want to back, and I don't think that has 
been determined yet, but I do know who is friendly, and that is 
the Kurds. They have been there since 1990 when we first went 
in the Gulf War. They have been there with America against the 
Iraqi Government in the liberation effort. So, in Iraq, when 
faced with ISIL, the Iraqi soldiers cut and run in Mosul, but 
who didn't cut and run was the Kurdish fighters. Who didn't cut 
and run in the face of a bulldozer that was armored in Erbil, 
they didn't cut and run; they actually ran toward the bulldozer 
to try to attack it and stop it, and 25 or so Kurdish fighters 
lost their lives because they didn't have the necessary 
armament and ability to stop something like that and to stop 
some of the other weapons that ISIL now has and using in 
theater.
    So my question to you is this: Does the administration 
intend to more robustly equip the Kurdish forces to commence 
the offensive operations? What kind of weapons other than small 
arms? Pistols, rifles, small arms; what else are we going to 
give our friends the Kurds to fight ISIL?
    Ambassador McGurk. I think, Congressman, I have discussed 
this earlier, but, I mean, we are going to be giving them a 
lot, and also through cooperation of the Iraqi Government, 
about, you know----
    Mr. Duncan. If I asked them, would they say that?
    Ambassador McGurk [continuing]. The 25 MRAPs they are going 
to be getting, and we are going to train/equip three Peshmerga 
brigades with the same Western equipment that any Iraqi brigade 
would have.
    Mr. Duncan. MRAP is more a defensive posturing. What kind 
of offensive weapons do we anticipate them having?
    Ambassador McGurk. Well, there is a huge list of what we 
are giving them, from RPGs to anti-tank rounds to everything 
else, and that list has been worked up with the Iraqis and the 
Kurds. And we--again, about 40 cargo flights have now come into 
Erbil to offload this equipment, and I agree with you that the 
Peshmerga have been very heroic fighters, and also--and I think 
the Kurds would be the first to admit this--Iraqi fighters 
south of the Kurdistan region have been extraordinarily heroic 
if you look at the defense of the Baiji refinery. That went on 
for 6 months.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Ambassador.
    Mr. Schneider of Illinois.
    Mr. Schneider. Thank you, and, again, Mr. Ambassador, thank 
you for being here and for your service to our country.
    Let me lay out four questions you can answer here, but I 
would appreciate a more elaborate written explanation.
    But in your opening remarks, you indicated that it was 
going to take a long time to defeat ISIL. What, in your sense, 
is the frame, broadly defined, what is that long time?
    You indicated that there are different challenges in 
fighting ISIL in Iraq and in Syria. Can ISIL be defeated in one 
country and not be defeated in the other? Is this a either/or, 
or do we have to do both?
    Can ISIL be defeated in Syria without first or at least 
nearly simultaneous achievement of a political settlement in 
Syria? And then maybe this is a paradox; can we achieve a 
political settlement in Syria without pushing back or defeating 
ISIL?
    My fourth question is, what are the biggest threats to our 
continued progress being made against ISIL in the next 30 to 90 
days, in the next year, and then long term?
    And, finally, what can and should Congress be doing to help 
you in your mission to push back, contain, and ultimately 
defeat ISIL?
    And, with that, I will leave you the remainder of the time.
    Ambassador McGurk. Those are big questions, and I thank you 
for your offer that I can follow up with some of those in 
writing in the interest of time. I think I would be happy to do 
that.
    In terms of time frame, we say ``years'' for a reason. I 
don't want to put a specific time frame on this. I think that 
that would be artificial, and this is going to be a multiyear 
challenge, so that is really the only way that I can really 
answer that. It is going to be a multiyear challenge.
    Mr. Schneider. But if I can, in the context of looking at 
the 12 months from March 2015 until 2016, that is going to be 
the front end of the battle against ISIL that will last, in 
your opinion, longer than that?
    Ambassador McGurk. We would like to see the Iraqis over the 
next 12 to 18 months begin to restore control over their 
sovereign territory and begin to restore control of the Iraq/
Syria border. I mean, that process will begin over the next 
year, and we are working with the Iraqis on a plan for that.
    In terms of the Congress, of course, the funding authority 
that we need, which I know that you are working on and we hope 
to have done shortly, and we really want to thank you for that, 
will be critical. The DoD request for the train/equip programs 
in Iraq and Syria will immediately be put to good use because 
we have programs ready to go now just waiting for that 
authorization, so we can thank you very much for all that this 
committee has done to support those efforts.
    Mr. Schneider. To the middle questions, can we defeat ISIL 
in Iraq or push them back in Iraq, give Iraq autonomy again and 
not defeat them at the same time in Syria to be effective?
    Ambassador McGurk. No. We made a determination that to 
degrade ISIL's warfighting capacity, we would have to target 
them in Syria as well.
    Mr. Schneider. So you have to do both. And in Syria, is it 
possible to push back against ISIL without simultaneously 
having a political solution and, as you said, a political 
solution that cannot and does not include Assad?
    Ambassador McGurk. I think these things do go hand in hand, 
but in order to get a political solution, you have to have a 
counterweight to extremist groups like ISIL, and that is what 
we are doing with the train and equip effort and some other 
efforts.
    Mr. Schneider. All right.
    With that, I will yield back my time.
    Mr. Duncan [presiding]. Thank the gentleman. The Chair will 
recognize Mr. Kinzinger from Illinois.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    Sir, thank you for being here. I do not envy the position 
that you have to sit in right now because I am sure truthfully 
you probably have a lot of disagreements with whatis happening, 
but I respect and understand your position, and I appreciate 
your service. So don't take any of this personally, please.
    You mentioned 25 MRAPs being given to the Peshmerga. Great 
start. I think we are giving 250 to the Iraqi Government. That 
is one MRAP per 26 miles along a 650-mile border that the Kurds 
have with ISIS. So I would like to point out, you know, 25 
MRAPs is really a joke. I mean, honestly, and I know it is not 
your decision, but I think--you know, when I was in Iraq 
recently, I went on a trip, and I left in 2009, and we had the 
war won, and when I went back in 2014 to see what had 
transpired since I left Iraq, was--I mean, personally, it was 
devastating, and it was hard for me to even talk about, but, 
you know, when I talked to our folks there that say, well, we 
just have to teach the Kurds how to concentrate forces of fire 
and not--you know, like as if three machine guns would somehow 
take out an MRAP better. It was crazy.
    Also, it is kind of fun on the committee to see all these 
kind of new hawks that I remember talking 2 years ago about we 
are going to have to go back to Iraq, and people thought it was 
a joke and thought I was joking, and here we are.
    Let me just, on the Syrian side of things, I think our 
failure to enforce the red line has been one of the most 
devastating foreign policy decisions for a couple reasons. I 
remember up to the red line discussion, there was legitimate 
talk about getting Bashar al-Assad out of office. You know, 
give him money and send him somewhere with sanctuary, whatever, 
but we got to preserve the institutions of the state. And I 
think had a new leader and probably have actually solved this 
peacefully.
    Today there is no real discussion about Bashar al-Assad 
leaving peacefully because he has no incentive to, and that is 
why I am a supporter of enforcing a no-fly zone--of even 
strikes against the Assad regime, because it changes the 
calculous in his mind to have him now understand that maybe if 
his life is at threat, he is going to peacefully leave Syria 
with the institutions in place and help peaceful transitions. 
That is how you are going to defeat ISIS, because I, frankly, 
think that Bashar al-Assad is the incubator of ISIS. He is the 
reason they are there. You kill 200,000 of your people, at some 
point even a terrible group like ISIS looks better than the guy 
that killed your wife and your son, as he has done in so many 
cases.
    You mention--by the way, I have heard recent reports even 
that the FSA is complaining of us cutting funding off to them 
and not even able to pay their soldiers anymore. I hope that is 
not true. That would be devastating. As a military guy myself, 
I expect a paycheck. It doesn't mean I am any less of a 
patriot; it just means I have to support people when I was 
full-time active duty.
    The one thing I do want to ask you, though, when we talk 
about, you know, for instance, strikes in Syria, you mentioned 
loiter time over Syria as having to come from the Gulf. Has 
there been any negotiations with the Turks in place to try to 
open up those bases? If so, what has been the administration's 
response, because from what I understand, they agree to it if 
there is maybe an air exclusion zone which the administration, 
I think, is not going to accept because they don't want to tick 
off Iran in the extra 7 months we have given them for 
negotiations. In fact, I have heard that, but I would like you 
to address that, sir, and, again, thank you for being here.
    Ambassador McGurk. Congressman, again, thank you for your 
service.
    And I think everyone who still continues to work on this 
issue does it in the memory of everyone who has served and 
particularly lost their lives in Iraq. I mean, that is really 
something----
    Mr. Kinzinger. And I appreciate that.
    Ambassador McGurk [continuing]. Central in all of our minds 
and why we need to get this right.
    The future of Syria, we are very clear. We want a Syria 
without ISIL or Bashar al-Assad and I discussed some of the 
ways you want to go about that, but that is going to take a 
long time.
    I guess we are in conversations with Turkey about opening 
up some of their platforms and also about narrowing some of the 
areas of disagreement we have had with them. I think we have 
made some progress, but it is an ongoing process.
    Mr. Kinzinger. Let me just say, as I wrap up my time, I 
don't see any down side in a no-fly or even an exclusionary 
zone above the FSA. If they are our allies as we are giving lip 
service to, Bashar al-Assad would be an idiot to challenge 
America's air superiority, and he probably wouldn't, but, 
again, thank you for being here, and I yield back.
    Mr. Duncan. The gentleman's time is expired.
    The Chair recognizes Mr. Kennedy from Massachusetts.
    Mr. Kennedy. Thank you, Mr. Chairman.
    Ambassador, thank you for your extraordinary service to our 
country. Thank you for coming back yet again. I think your 
testimony is always enlightening and thank you for the 
extraordinary amount of time, effort, energy that you have put 
into these issues.
    I wanted to ask you two basic areas, and I apologize if I 
ask you to repeat yourself, so gloss over quickly if I do.
    First off, with building a little bit off of what Mr. 
Kinzinger was just touching on, you mentioned in your opening 
statement the fact that we have allies in this effort that are 
on both sides of the Assad debate. Stay or go, if you will.
    Much of the testimony that we have heard before this 
committee is that the main draw for fighters into the region to 
begin with was against Assad, and you have stated that overall 
the end game in this, if you will, is the political transition 
of power or Assad would leave.
    I have hard time seeing how at this point there is any 
impetus to have Assad go, just as Mr. Kinzinger pointed out. I 
understand that you then said that this was a first phase of 
this effort, and that it is a years--potentially years long.
    What changes this calculus and how long, best estimate, 
sir, do you think it takes for an armed or moderate Syrian 
rebel force to actually be strong enough to fend off on one 
side ISIS and the other side Assad?
    Ambassador McGurk. You hit on a key question, Congressman. 
I think if you look at the efforts of Staffan de Mistura, that 
is why he is focused on this bottom up approach, or at least 
freeze the conflict particularly in Aleppo, and he has 
discussed that with us. He has discussed it with Bashar al-
Assad, and, again, we are fully supportive of those efforts, 
but we are also concerned because we don't want to have another 
situation like in Homs or Yarmouk, where you had a ceasefire, 
which basically was a kneel--grew out of a kneel or starve 
campaign, which the Assad regime perpetuates upon its 
population. But when he looked at the situation and said the 
best we can do right now politically is let's try to freeze the 
conflict in some of these local areas, particularly Aleppo, 
and, again, if he can make progress in that, we are fully 
supportive of that effort.
    And then on the trying to get another political process 
going, that is the efforts that Secretary Kerry of moving 
forward with some of the key stakeholders in the region, and 
that is an ongoing process.
    But in terms of the force being able to defend against all 
these multi threats, it is just extremely difficult. And what 
we are finding is that, you know, there is, you know, tens of 
thousands of moderate opposition fighters, and my colleague in 
the State Department, Daniel Rubenstein, who has discussed--
talking to them every single day, they are very locally rooted, 
protecting their homes, protecting their neighborhoods, and we 
do want to make sure that they can protect their homes and 
neighbors and communities against all of these different 
threats, and that is why I said in my testimony, particularly 
for the units we are going to try to train and equip, they will 
be--they will be organized to fight ISIS, but they are also 
going to be able to defend themselves against the regime.
    Mr. Kennedy. And, Mr. Ambassador, then if this is 
essentially the United States, and understanding the blurred 
lines between Iraq and Syria, but continuing this fight now in 
another Middle Eastern country for potentially years, I have a 
very hard time understanding how that there is not additional 
or a new authorization for the use of military force that is 
going to be necessary in terms of outlining what these efforts 
are going to be. I know Secretary Kerry was pushed on this a 
bit in the Senate yesterday. As I understand, the new Congress 
is going to start to outline this, and I think some 
negotiations have already started. Anything that you would 
suggest we keep in mind as we debate that authorization which, 
candidly, from my perspective, is now months overdue?
    Ambassador McGurk. Well, I think I would just review the 
Secretary's testimony yesterday. I mean, he did say we are 
prepared to work with the Congress very closely. We think an 
AUMF should include--we don't think it should include a 
geographic limitation. That has been in some of the language. 
We also want to make sure that the flexibility of the commander 
in chief, given that we face a very uncertain environment is 
maintained, but, anyway, we are willing to work with you as the 
Secretary confirmed yesterday before the Senate.
    Mr. Kennedy. Thank you. Sorry to ask.
    Mr. Duncan. The gentleman's is expired.
    The Ambassador does have a meeting at the White House and 
has a hard departure time at 12:15. So any members that are 
willing to take less time and yield back the balance would be 
appreciated.
    The Chair recognizes Mr. Yoho from Florida.
    Mr. Yoho. Thank you, Mr. Chairman.
    Mr. McGurk, thank you for being here.
    ISIS' vision is an apocalyptic vision to destroy America. 
They want a worldwide caliphate, and in doing that, you know, 
they are looking to come here. And I know our goal was to 
defeat ISIS, and, Congressman Duncan asked you the mission, and 
you defined the mission. In order to complete a battle and have 
support behind you, you have to have a clear, defined mission. 
And you kind of laid that out in a three-phase scenario there, 
in the metrics--you talked about some of the metrics in there.
    One of the questions that I have is the coalition that we 
have, and I know we are training, and in March 2016, you are 
looking at having 5,000 fighters over there.
    How is the global coalition going? Who is on the ground 
right now? Is it the Syrian Free Rebels? Other countries? What 
other countries have people in there? Any of the Saudi Arabian 
countries? Any other countries? Germany? France?
    Ambassador McGurk. Well, we are talking--I would leave it 
to capitals to announce their commitment, as we are talking 
with a number of partners to support the train/equip--of course 
the train/equip mission in Syria, Saudi Arabia, Turkey, and 
Qatar have been clear that they will host training sites.
    Mr. Yoho. But as far as boots on the ground.
    Ambassador McGurk. Well, in Iraq, we are going to have a 
number of coalition partners subject to the approval of the 
Iraqi Government----
    Mr. Yoho. What about right now?
    Ambassador McGurk [continuing]. With the training.
    Well, Canada, the U.K., Australia.
    Mr. Yoho. Are they trainers or are they actual----
    Ambassador McGurk. Trainers.
    Mr. Yoho [continuing]. Are they engaged?
    Ambassador McGurk. Trainers and some advise-and-assist 
units, but focused--we are not going to have units going out. 
Again, it is subject to whatever the other capitals agree to 
and subject to the authorization of the Iraqi Government, but 
we have a number of coalition partners, about 1,500 total, 
helping us with the train----
    Mr. Yoho. But as far as boots on the ground, it is Iraqis, 
Syrian freedom fighters, the Kurds.
    Ambassador McGurk. Our ground force against ISIL are local 
forces. That is the model.
    Mr. Yoho. In the Middle East, it is in a state of flux, and 
you said that we have to protect American interests.
    What are those? Are they defined in the State Department? 
What are those interests?
    Ambassador McGurk. Well, primarily, we want to protect the 
homeland against extremist threats and al-Qaeda-borne extremist 
groups so when you see an organization with 16,000 foreign 
fighters from 90 different countries around the world flowing 
into Syria, flowing into Iraq, getting combat experience, and 
then flowing outwards to their home capitals, potentially here 
at home, that is a very significant threat.
    Mr. Yoho. And you feel it is best to fight them over there 
then here, and I agree, but the mission, the war on ISIL, is 
there a way to narrow that down, because that is kind of like 
the war on poverty or the war on terror. It is this big broad 
war that never goes away. The war on poverty, we have been 
fighting it for 50 years, and were are losing ground on it.
    Is there a way to streamline these, because we have the war 
on terror, we have OCO, the Overseas Contingency Operation. Is 
there a way to streamline these to maximize them so we are 
concentrating our resources in a specific area, and is there an 
end game, a defeat of ISIL? Is that something that is--in your 
mind is plausible, because you are fighting an ideology. How do 
you bring that to an end, and what is that conclusion?
    Ambassador McGurk. Well, it is a good question. That is why 
we are focused on ISIL as an organization, and we want to we 
want attrite its manpower, we want to cut off its finances, we 
want to stop its foreign fighters and basically suffocate the 
entire organization, and that is what we are focused on doing.
    Mr. Yoho. Do you see--we tried that with the Taliban and 
al-Qaeda and we got to a point where we thought we had them 
defeated, but here they are again, and ISIL came out of that, 
and do you see if we don't--if we don't have a definition of 
completeness, there is going to be an ISIL part 2, and I see 
these forces coming together because their mission is to bring 
the caliphate over here, and you don't have time to answer 
that, but if you could jot something down and enter it into the 
record, I would appreciate it, and you have a great----
    Mr. DeSantis [presiding]. Gentleman's time is expired.
    Chair now recognizes the gentlemen from California, 4 
minutes.
    And members are reminded if they can yield back time, we 
will get everyone in, the Ambassador has got to leave in about 
20 minutes.
    Mr. Bera. Thank you, Mr. Chairman.
    Obviously, this is complicated, to say the least.
    Mr. Ambassador, you laid out the 3 planks: Degrade ISIL, 
dismantle ISIL, and defeat ISIL. It does look like we are in 
the phase of degrading ISIL.
    You also laid out two prongs to that degradation. The 
counterfinance operation to choke off ISIL's funding, and then 
also breaking up and reducing the foreign fighters.
    Can you give us an update on how the counter-finance 
operation is doing drawing down ISIL's sources of revenue and 
how that is impacting morale?
    Ambassador McGurk. Well, I can give you anecdotes, and I 
can come back in a different setting and give you some figures, 
but we have taken off line about 22 mobile refineries. They had 
a refining capacity of roughly 240 barrels a day almost, which 
was a substantial revenue stream. We have taken most of that 
offline, and I can come give you the specific figures, and we 
have seen increasing reports, particularly in Ninawa and Mosul 
that their ability to pay their fighters is substantially 
degraded, and also that their ability to get fuel is also 
degraded, but we got to keep at this.
    Mr. Bera. Do we get a sense that those fighters that are on 
the ground with ISIL right now, are they losing some of those 
fighters, or are we----
    Ambassador McGurk. They are losing fighters at a pretty 
substantial clip every week based upon our air strikes, and 
that is why, again, Kobani has been significant, because they 
flooded hundreds of fighters into Kobani, including, we had 
indications, some of their top fighters, and we were able to 
deal with them quite effectively.
    Mr. Bera. And then, as the second part of the degradation 
mission, breaking up and reducing the inflow of foreign 
fighters, you referenced working with our alliance partners and 
so forth, a broad coalition of folks that are stepping up to 
reduce the influx of foreign fighters.
    Can you give us an update on what we may be seeing in 
those----
    Ambassador McGurk. It is difficult to measure, but ISIL's--
its propaganda is that it is a war of flags. It is planting its 
flag everywhere it goes. You can see that in its media 
products, and what we have been able to do over the last 90 
days is completely reverse that notion. It is now contracting, 
and I think the--it was selling this message that if you come 
and join ISIS and come to Syria, you will basically live this 
utopian fantasy. I think that fantasy is now clearly not true. 
You go to Syria, you are probably going to get killed, and if 
you go home, you are probably going to get arrested and 
prosecuted.
    I was in Germany last week when they sentenced their 
first--an ISIL fighter who returned to Germany was sentenced to 
3 years in prison. So I think, you know, the tide is turning, 
but we need to--again, we just need to keep at this.
    Mr. Bera. And are we seeing our--the Muslim countries in 
the region that are coalition partners stepping up kind of the 
anti-propaganda, anti-messaging----
    Ambassador McGurk. Yes. They are extremely focused on that, 
and in the interest of time, I would actually--I could provide 
you a fairly detailed written account to respond to that.
    Mr. Bera. That would be great. I will go ahead and yield my 
time back.
    Mr. DeSantis. Thank the gentleman for that.
    The Chair now recognizes the gentleman from Texas, Mr. 
Weber, for 4 minutes.
    Mr. Weber. Earlier you said, Ambassador McGurk, that we 
don't want to tie the hands of the commander in chief, but if 
he doesn't listen to his military generals and then the 
Congress and our wishes--i.e., Ed Royce's and Mr. Engel's 
legislation that they filed to allow us to sell weapons to the 
Kurds--is he tying our hands, tying the military's hands?
    Ambassador McGurk. Again, I am regularly in meetings with 
the President and the chairman of the Joint Chiefs, and it is a 
very free-flowing conversation. I have seen no indication that 
any hands are being tied.
    Mr. Weber. Why do you suppose he has--I think--and I don't 
want to put words in Chairman Royce's mouth, but, you know, he 
said he filed that legislation. I guess it comes out that the 
admin is opposed to it. Why do you think that is?
    Ambassador McGurk. I am not going to comment on pending 
legislation, but I am happy to work with the committee on 
legislation to advance these ideas. The draft I have seen--one 
of the preambular paragraphs talks about the need for Baghdad 
to begin to resolve these issues expeditiously, and I think we 
are now seeing that happening. So----
    Mr. Weber. Okay. Let me move on from there: 50,000 ghost 
soldiers were on the payroll, and we discover that, and 
hopefully we are not sending that money anymore.
    Do we know who is responsible for that, and are they still 
in a position of authority?
    Ambassador McGurk. Well, I think, you know, 36 commanders 
have been terminated and new commanders have been appointed. 
So----
    Mr. Weber. So we are confident that we rooted that out?
    Ambassador McGurk. No. I don't think we are confident it 
has entirely been rooted out. This is going to be a----
    Mr. Weber. Confident that we rooted out that corruption of 
those 50,000 ghost soldiers.
    Ambassador McGurk. Well, that was, and I defer to the Iraqi 
Government who made the statements about this, but that they 
found situations in which soldiers no longer were active and 
were still getting paychecks, meaning those paychecks were 
going to someone else, and that----
    Mr. Weber. Okay. Let me move on really quick so try to 
yield some time.
    You said 22 mobile refineries, 240 barrels a today. At $80 
a barrel, that is $576,000 a month. At $60 a barrel, it is 
$432,000 a month.
    How are they able to hang on to that money and disburse it? 
Are we tracking that? Are we able to get into financial 
institutions? How is that working?
    Ambassador McGurk. Yeah. That is why we have a--that is why 
we have a line of effort focused on the counterfinance, and 
that is led by our colleagues--some of my colleagues at the 
State Department, also at the Treasury Department. We are 
taking all the tools in our sanctions tool kit, which are very 
effective and bringing it to bear on this problem. In terms----
    Mr. Weber. Very quickly, so I can yield some time here, who 
do we think is getting the most of that money? The banks, for 
example, or who is buying that oil, I guess I should say. Is it 
Turkey----
    Ambassador McGurk. Well, a lot of it is smuggled. It is 
through the Kurdistan region and through Turkey, but I--we 
haven't seen any complicity by Kurdish authorities or Turkish--
--
    Mr. Weber. Let me yield back, Mr. Chair.
    Mr. DeSantis. I thank the gentleman.
    The Chair now recognizes Ms. Frankel from Florida, 4 
minutes.
    Ms. Frankel. Thank you, Mr. Chair.
    Thank you, sir, for your testimony here today.
    And, you know, I have heard a lot of frustration, some loud 
voices, from Congress, but I just have not heard any real good 
ideas or plans put forth by the Congress.
    And I think maybe that is the reason we have not done what 
I think we should have done, which is to take up and debate 
this so-called war against ISIL. And we have really ducked our 
responsibility, which is to either authorize or not this war.
    With that said, I want to ask you a couple of questions 
just at the end of the line here.
    Are we giving supplies and money directly to the Peshmerga 
or does it go through Iraq Government? That is question number 
1.
    Ambassador McGurk. Sure.
    Ms. Frankel. Number 2 is: Can I--can we assume from your 
testimony that there is no ongoing conversations for any kind 
of political settlement in Syria? And what would be your idea 
as to who would--what the Government would look like, from a 
practical point of view, if al-Assad was not present? And if 
you have any more time, I would like to understand the general 
conditions in Syria in terms of who is providing services to 
what segments of the population.
    Ambassador McGurk. First, in terms of supplying the Kurdish 
Peshmerga forces, it goes through--it is a cooperative 
collaborative process now with the Kurds, with us, with the 
central government, and it seems to be--I think it is working 
very well. If there are additional requests from Kurdish 
authorities, we sit down with them and will work through them, 
and we will continue to do that.
    Ms. Frankel. But you have to get permission from the Iraq 
Government. Is that correct?
    Ambassador McGurk. Permission. It is a collaborative 
process, and the new--as I mentioned, the Minister of Defense 
has approved every single request that has come. It is just a 
new--we are in a bit of a new era here, and we need to keep it 
moving the right way.
    In terms of the situation with what the future Assad regime 
might look like, we are working on starting a political 
transition process based on the principles of the Geneva 
Communique from a couple years ago, which lays out a very clear 
transition process that the world had really united around.
    And Secretary Kerry, as I have mentioned, has been involved 
with the key stakeholders to try to get that process on track. 
And then the process with Staffan de Mistura is also ongoing, 
which I discussed.
    Ms. Frankel. Is anyone from Syria involved in the process 
right now?
    Ambassador McGurk. Well, again, my colleague, Daniel 
Rubenstein, is in touch with Syrians every single day. I mean, 
not only is my office almost right next to his, I see him on 
airplanes in the region because we are criss-crossing the 
region. So he is constantly in discussion with particularly the 
Syrian opposition.
    Ms. Frankel. And then what about Mr. Assad?
    Ambassador McGurk. Well, again, I think there is a 
consensus that the future of Syria with him at the helm will 
not be stable and will continue to fuel his extremism. So the 
process by which we have a transition, however, remains the 
long pull and intent.
    Ms. Frankel. I yield the rest of my time.
    Mr. DeSantis. I thank the gentlewoman.
    The Chair now recognizes himself for 4 minutes.
    Ambassador, in terms of Iran, do you believe that they can 
in any way be a constructive force in the fight against ISIS?
    Because there has been some talk that maybe, you know, they 
have sectarian differences with them and maybe that is good for 
us.
    What is your position? And how are you conducting yourself 
in performing your duties with that in mind?
    Ambassador McGurk. Again, we have no coordination with the 
Iranians whatsoever. We recognize that ISIL is a threat to Iran 
and, given the proximity and the border between Iraq and Iran, 
that, you know, Iran has a stake in this. But how they conduct 
themselves, whether it is in full respect with Iraqi 
sovereignty or not, remains an open question.
    And we have discussed this with multiple Iraqi leaders, and 
they are very protective of their sovereignty against any other 
foreign state, whether it is us or Iran. And Grand Ayatollah 
Sistani has also spoken to this, about the danger of 
unregulated militias operating on Iraqi soil. So it remains an 
ongoing thing.
    I just go back to my opening statement that the state 
structures of Iraq almost entirely collapsed 6 months ago 
today. We are rebuilding from there. It is going to be a very 
long process. And Iran inevitably will have a role in this. It 
is just an open question of whether they want to play a role 
that is constructive or destructive.
    Mr. DeSantis. I will just say I am very--and I think a lot 
of my colleagues here on the committee are very skeptical that 
Iran could play a constructive role. I know the President wrote 
a letter to the Ayatollah several weeks ago, was reported, and 
I think a lot of us are concerned about where that may go. Iran 
does want to be involved in Iraq, but I think it is to sow more 
mischief.
    Let me ask you this about the train-and-equip mission in 
terms of the rebels in Syria. Now, we passed the McKeon--
Congress passed the McKeon amendment, talked about what 
appropriately vetted rebels, how they could qualify to be 
vetted. And, basically, it was saying, you know, no terrorist 
ties or anything.
    Congress just passed last week--that was--the NDAA 
compromise. That was the 1,600-page bill we got put on us last 
week. Now this week is the Cromnibus. But we did have a 1,600-
page NDAA last week.
    And I was reading through that and I noticed that the 
section about the train-and-equip for the Syria rebels--part A 
is substantially the same as the McKeon, and part B, though, is 
new.
    And it said not only do they not have to have terrorist 
ties--it says and, B, they have to show a commitment for such 
elements, groups, and individuals to promoting the respect for 
human rights and the rule of law.
    So are you aware that that provision was in the NDAA?
    Ambassador McGurk. Again, I think our vetting standards are 
fairly consistent with similar efforts in the past.
    Mr. DeSantis. Because I think there is a difference between 
just not being a terrorist--I mean, you could still have a 
desire for an Islamic state, a Sharia state. You could still be 
a sectarian fighter.
    I mean, rule of law and human rights, that means there are 
more pro-American fighters. And it didn't seem to me that the 
groups that I saw on the ground and in the reports would really 
qualify as really great groups. It was kind of like the lesser 
of two evils.
    So is this going to change the vetting, this language, or 
you didn't think it will?
    Ambassador McGurk. I think, you know, General Mike Nagada, 
who is doing this full-time--and we are working to generate 
classes to fill these training sites as early as March--has 
focused on the vetting. So I defer the question to DoD.
    Mr. DeSantis. I think it is a concern because, I mean, we 
are training these guys in Saudi. You know, Qatar is involved. 
And those are not exactly states where there is a lot of 
respect for human rights.
    But I am going to yield----
    Ambassador McGurk. We have control on them. We maintain 
control in the vetting, which is the critical criterion.
    Mr. DeSantis. No. I understand that.
    So I will yield back the balance of my time.
    And I will now recognize Mr. Deutch for 4 minutes.
    Mr. Deutch. Thank you, Mr. Chairman.
    Ambassador McGurk, thanks for being here. Thanks for your 
continued good service.
    I want to just follow up on the chairman's questions about 
Iran. You had said that Iran would play a role. We are 
concerned--there is some concern, obviously, about the role 
they are already playing.
    There were reports this week that said that Kurds force 
leaders are on the ground in Iraq. There were--there obviously 
have been reports about Iranian air strikes.
    One thing I am not sure that you have had a chance to do 
yet: Can you confirm the U.S. is still not cooperating with 
Iran militarily at all?
    Ambassador McGurk. Yes. Absolutely. I can confirm that.
    Mr. Deutch. And then I want--I would like to just circle 
back--given the Iranian involvement in Iraq, I would like to 
circle back to Syria, where I think it is related.
    Because with respect to the Syrian opposition and the role 
that--the role our efforts to strengthen them plays in 
countering ISIS, there has been a lot written lately about the 
moderate opposition feeling squeezed, and we have heard from 
some groups here that U.S. air strikes are seen as helping 
Assad in the fight inside Syria.
    So if you--if you accept that premise and you add to it the 
fact that Iran is on the ground in Syria, that the opposition 
used the Iranians as the most important player in propping up 
the Assad regime, which has slaughtered over 200,000 people--if 
you play all of that in, how does the effect of both our ISIS 
operations on Syria and the comments that we have made--while 
we are not cooperating with Iran, some positive comments about 
Iranian air strikes being beneficial in going after ISIS--how 
does all that play in the ability of the moderates in Syria to 
ever be able to cast off Assad?
    Ambassador McGurk. I would--again, it is a--as one of your 
colleagues mentioned, it is an extremely complicated situation, 
and we are looking very closely and are concerned about any 
effort of the Assad regime to exploit the fact that, you know, 
we are striking ISIL, which is a necessary--degrading ISIL is a 
necessary condition to any future in Syria, which would be--
which would be stable and prosperous for the Syrian people.
    So we are looking at this extremely closely, Congressman. 
It is extremely complicated. But right now our focus in Syria, 
given that we are at the earliest phase of Phase 1 in this 
campaign, is to degrade ISIL.
    At the same time, we have, in the medium term, the train-
and-equip effort in getting these units employed into the 
field, which will be a kind of an inkblot strategy as they 
begin to stabilize local areas and begin to provide a 
counterweight to extremists. And those units will have to be 
able to defend themselves against the regime. There is no 
question about that.
    Mr. Deutch. And if the--here's the fundamental question. 
For the opposition in Syria that has--that has looked--that has 
looked to us and others and has said, ``It is now years that 
war has been waged against us. There are over 200,000 dead. 
There hasn't been any real--aside from the political efforts, 
there hasn't really been any effort to take action to save the 
lives of--or prevent the barrel bombs from being dropped or to 
provide cover for humanitarian aid,'' if that is their--that is 
the way they view it, what do we--what is the response to them 
when they now come back and say, ``And now you are involved in 
training some people to go after ISIS, but that still leaves 
open the possibility that Assad can continue to slaughter us 
with impunity''?
    Ambassador McGurk. Well, again, Congressman, I mean, there 
have been efforts. There are some efforts that I don't--I 
obviously can't discuss here.
    So there is a lot going on here with the moderate 
opposition groups that we support in a various--myriad of ways. 
So--but we have conversations with them constantly.
    But if you just look at a map of Syria, about the swath of 
territory through the entire Euphrates Valley that ISIL 
controls, having a coherent plan and working with local forces 
and working with the moderate opposition to degrade ISIL in 
those areas and begin to recover those populations from the 
boot of ISIL, that is a significant interest.
    That is in our interest and, also, in the interest of the 
Syrian people and the moderate opposition. So we are trying to 
find that intersection with them to be able to work very 
cooperatively together.
    Mr. Deutch. Thank you.
    Mr. DeSantis. The gentleman's time's expired. And the 
Ambassador has a hard stop.
    So we want to really thank you for giving us the time you 
have. And there is obviously a lot going on in this region. It 
is complicated. But we are going to continue to monitor it 
because we know it is important for our security interests. So 
thanks.
    This hearing is adjourned.
    [Whereupon, at 12:15 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
